SIGAR                                 Special Inspector General for
                                       Afghanistan Reconstruction




                                                 SIGAR 14-39 Financial Audit




      USAID’s Strategic Provincial Roads Program: Audit of Costs
      Incurred by International Relief and Development, Inc.




                                               FEBRUARY
                                                              2014

SIGAR 14-39-FA/ SPR Program
February 25, 2014


Dr. Rajiv Shah
Administrator
U.S. Agency for International Development

Mr. William Hammink
Mission Director for Afghanistan
U.S. Agency for International Development


This letter transmits the results of our audit of costs incurred by International Relief and Development, Inc.
(IRD) under a U.S. Agency for International Development (USAID) cooperative agreement to provide support for
the Strategic Provincial Roads (SPR) program. 1 The audit, performed by Mayer Hoffman McCann P.C. (MHM),
covered the period November 30, 2007, through December 31, 2012, and total expenditures of
$317,448,948.
The objective of USAID’s SPR program was to improve stability and security in eastern and southern
Afghanistan by rehabilitating provincial roads and increasing institutional capacity to maintain the rehabilitated
roads. IRD was required to construct 1,863.4 kilometers of gravel roads in 12 eastern and southern Afghan
provinces. The program also had an outreach component with a budget of $32.4 million that included
(1) arranging memoranda of understanding with tribal leaders; (2) training and safety awareness programs;
and (3) a range of infrastructure development projects to enhance the vitality of the roads.
The specific objectives of this financial audit were to
    •    render an opinion on the fair presentation of IRD’s Special Purpose Financial Statement; 2
    •    determine and report on whether IRD has taken corrective action on recommendations from prior
         audits or assessments;
    •    identify and report on significant deficiencies, including any material weaknesses, in IRD’s internal
         control over financial reporting; and
    •    identify and report on instances of material noncompliance with terms of the award and applicable
         laws and regulations.
In contracting with an independent audit firm and drawing from the results of their audit, SIGAR is required by
auditing standards to provide oversight of the audit work performed. Accordingly, SIGAR reviewed MHM’s audit
results and found them to be in accordance with generally accepted government auditing standards.
MHM issued a qualified opinion on the fair presentation of the Special Purpose Financial Statement because
of the identification of $14,179,351 of questioned costs, which represents a material misstatement. MHM
identified two prior audit findings pertinent to the SPR program and found that IRD had not taken adequate
corrective action to address one of them. 3 MHM reported 12 internal control deficiencies and 10 instances of



1 USAID cooperative agreement number 306-A-00-08-00509-00.
2 The Special Purpose Financial Statement is a financial statement that includes all revenues received, costs incurred, and
any remaining balance for a given award during a given period.
3 The prior finding related to controls over payments to subcontractors. MHM noted a similar condition in its finding 2013-4

and, as a result, concluded that adequate corrective action had not been taken.
noncompliance, which prompted the auditors to question $14,179,351 in costs. These questioned costs
included $2,580,239 in ineligible costs 4 and $11,599,112 in unsupported costs. 5 See table 1.
Table 1 - Summary of Questioned Costs
 Category                                     Questioned Costs Total                      Ineligible              Unsupported

 Road Rehabilitation                                      $12,134,909                   $2,248,935                  $9,885,974

 Community Outreach and Capacity                            $1,570,049                     $41,201                  $1,528,848
 Building

 Management and Administration                                $474,393                    $290,103                    $184,290

 Totals                                                   $14,179,351                   $2,580,239                 $11,599,112

Given the results of the audit, SIGAR recommends that the Mission Director of USAID/Afghanistan:
     1. Determine the allowability of and recover, as appropriate, $14,179,351 in questioned costs identified
        in the report.

     2. Advise IRD to address the 12 internal control findings identified in the report.
     3. Advise IRD to address the 10 compliance findings identified in the report.
We will be following up with your agency to obtain information on the corrective actions taken in response to
our recommendations.




John F. Sopko
Special Inspector General
 for Afghanistan Reconstruction



(F-012)




4 Ineligible costs are unreasonable, prohibited by the audited contract or applicable laws and regulations, or not award-

related. Ineligible costs are costs that the auditor has determined to be unallowable. These costs are recommended for
review by USAID to make a final determination regarding allowability.
5 Unsupported costs are not supported with adequate documentation or did not have required prior approvals or

authorizations.




                                                              2
   INTERNATIONAL RELIEF AND DEVELOPMENT, INC.

          Financial Audit of Costs Incurred under
     Cooperative Agreement No. 306-A-00-08-00509-00

For the Period November 30, 2007 through December 31, 2012
                 INTERNATIONAL RELIEF AND DEVELOPMENT, INC.

                           Financial Audit of Costs Incurred under
                      Cooperative Agreement No. 306-A-00-08-00509-00

                For the Period November 30, 2007 through December 31, 2012


                                      Table of Contents


                                                                               Page
Summary:
 Background                                                                      1
 Objectives, Scope and Methodology                                               2
 Summary of Results                                                              5
 Summary of IRD’s Responses to Findings                                         11
 Review of Prior Findings and Recommendations                                   13

Independent Auditors’ Report on Special Purpose Financial Statement             15

Special Purpose Financial Statement                                             18

Notes to Special Purpose Financial Statement                                    19

Notes to Questioned Costs Presented on Special Purpose Financial Statement      22

Report on Internal Control Over Financial Reporting Based on an Audit of the    25
 Special Purpose Financial Statement Performed in Accordance
 with Government Auditing Standards

Report on Compliance and Other Matters Based on an Audit of the Special         28
 Purpose Financial Statement Performed in Accordance with
 Government Auditing Standards

Findings and Responses                                                          30

Appendices:
 Appendix A: IRD Responses to Findings                                          66
 Appendix B: Auditor’s Rebuttal to IRD Responses to Findings                    88
                 INTERNATIONAL RELIEF AND DEVELOPMENT, INC.

                           Financial Audit of Costs Incurred under
                      Cooperative Agreement No. 306-A-00-08-00509-00

                For the Period November 30, 2007 through December 31, 2012


SUMMARY

Background

The Office of Special Inspector General for Afghanistan Reconstruction (SIGAR) contracted with
Mayer Hoffman McCann P.C. (MHM) to perform a Financial Audit of Costs Incurred under
Cooperative Agreement No. 306-A-00-08-00509-00 (Agreement) between International Relief
and Development, Inc. (IRD) and the United States Agency for International Development
(USAID) for the period November 30, 2007 through December 31, 2012.

On November 30, 2007, USAID awarded the Agreement to IRD in the amount of $399,999,346,
of which $136,000,000 was obligated and $500,000 was a non-Federal cost-sharing amount.
The initial period of performance was through December 31, 2010. This Agreement has been
modified 15 times increasing the total amount of the Agreement to $497,535,342, of which
$320,585,689 has been obligated.

The purpose of Agreement was to conduct activities focused on supporting a regional roads
program for eastern and southern Afghanistan by constructing approximately 1,863.4 kilometers
of engineered gravel roads in 12 southern and eastern provinces of Afghanistan through the
Strategic Provincial Roads (SPR) Program. The roads to be rehabilitated were identified by
USAID in association with the U.S. Military and local and national government of Afghanistan
entities. In addition to the rehabilitation of provincial roads, special development assistance
components, such as capacity building and community development activities were sought to
maximize the impact of the roads and ensure sustainability of the rehabilitated roads.

The core objective of the Agreement was to assist USAID to increase stability and security in
Eastern and Southern Afghanistan by rehabilitating provincial roads and increasing institutional
capacity to:

   1.   Facilitate efficient movement of goods and people;
   2.   Increase access to government and social services, such as education and health care;
   3.   Decrease ethnic divisions between regions;
   4.   Facilitate development of the agriculture sector;
   5.   Improve regional integration, security and stability;
   6.   Increase capacity for sustainable road construction, rehabilitation and maintenance; and
   7.   Provide employment opportunities for local Afghans.

In addition to pure road construction, IRD had a significant outreach component built into the
SPR program with a budget of approximately $32.4 million. Outreach activities included (1)
arranging Memoranda of Understandings with tribal leaders along each road; (2) training and
safety awareness programs; and (3) a range of infrastructure development projects to enhance
the vitality of the road while still meeting the core objectives. The latter included agricultural
initiatives, water well construction, micro-grants for small business start-ups, and other
programs developed in cooperation with each community.



                                                1
                  INTERNATIONAL RELIEF AND DEVELOPMENT, INC.

                            Financial Audit of Costs Incurred under
                       Cooperative Agreement No. 306-A-00-08-00509-00

                For the Period November 30, 2007 through December 31, 2012


SUMMARY

Subsequently, USAID descoped numerous roads within the project as they were deemed
unlikely to be finished during the award period. Some of the challenges to timely completion
included the technical and resource limits of IRD’s subcontractors, insufficient time to rebid
projects, and/or high security risks at some project locations. IRD requested, and was granted,
an extension of the closeout period of the Agreement through September 30, 2013.


Objectives, Scope and Methodology

Objectives

The objectives of the audit include the following:

   •    Internal Controls – Evaluate and obtain a sufficient understanding of IRD’s internal
        controls related to the award; assess control risk; and identify and report on significant
        deficiencies including material internal control weaknesses.

   •    Compliance – Perform tests to determine whether IRD complied, in all material respects,
        with the award requirements and applicable laws and regulations; and identify and report
        on instances of material noncompliance with terms of the award and applicable laws and
        regulations, including potential fraud or abuse that may have occurred.

   •    Corrective Action on Prior Audit Recommendations – Determine and report on whether
        IRD has taken adequate corrective action on prior external audit report
        recommendations or other external assessment recommendations.

   •    Special Purpose Financial Statement (SPFS) – Express an opinion on whether the
        SPFS presents fairly, in all material respects, revenues received, costs incurred, items
        directly procured by the U.S. Government and outstanding balance for the period
        audited in conformity with the terms of the award and generally accepted accounting
        principles or other comprehensive basis of accounting.


Scope

The scope of this audit included all costs incurred during the period November 30, 2007 through
December 31, 2012 under the Agreement. Our testing of overhead costs was limited to
determining that the overhead costs charged were calculated using the correct final negotiated
overhead rate or provisional overhead rate, as applicable for the given fiscal year, as approved
by USAID.




                                                 2
                 INTERNATIONAL RELIEF AND DEVELOPMENT, INC.

                           Financial Audit of Costs Incurred under
                      Cooperative Agreement No. 306-A-00-08-00509-00

                For the Period November 30, 2007 through December 31, 2012


SUMMARY

Methodology

In order to accomplish the objectives of this audit, we designed our audit procedures to include
the following:


Entrance Conference

An entrance conference was held via conference call on March 7, 2013 with representatives
from MHM, IRD, SIGAR and USAID participating.


Planning

During our planning phase, we performed the following:

   •   Obtained an understanding of IRD;
   •   Reviewed the Agreement and modifications;
   •   Reviewed regulations specific to USAID that are applicable to the Agreement;
   •   Performed a financial reconciliation; and
   •   Selected samples based upon our approved sampling techniques. According to the
       approved sampling plan, we used the detailed accounting records that were reconciled
       to the financial reports, and based upon the risk assessed included as part of the
       approved Audit Plan, we performed data mining to assess individual expenditure
       accounts and transactions that were considered to be high or medium risk for inclusion
       in our test of transactions. If the population of a given cost category tended to be large
       in number of transactions and more homogeneous in nature, we selected a statistical
       sample of the costs. The sample size tested was based upon a 95% confidence level
       with 5% maximum tolerable error rate. The sample was selected on a random basis. All
       other cost categories and/or accounts for which it was not appropriate to select a
       statistical sample, we selected the sample on a judgmental basis. Our sampling
       methodology for judgmental samples is as follows:

           o   For accounts that appeared to contain unallowable and restricted items
               according to the terms of the contract and Office of Management and Budget
               (OMB) Circular A-122 cost principles and any other applicable regulations, we
               tested 100% of the transactions.
           o   For high risk cost categories, we sampled at least 50% of the dollar value of the
               account.
           o   For medium risk cost categories, we sampled at least 20% of the dollar value of
               the account.




                                               3
                 INTERNATIONAL RELIEF AND DEVELOPMENT, INC.

                           Financial Audit of Costs Incurred under
                      Cooperative Agreement No. 306-A-00-08-00509-00

                For the Period November 30, 2007 through December 31, 2012


SUMMARY

          o   For low risk cost categories, we sampled 10% of the dollar value of the account,
              not to exceed 50 transactions in total for all accounts comprising low risk cost
              categories.

       For those cost categories and/or accounts that were selected on a statistical basis, we
       calculated an error rate and projected the results to the population. If the results for a
       judgmental sample indicated a material error rate, our audit team consulted with the
       Audit Manager and Project Director as to whether the sample size should be expanded.
       If it appeared that based upon the results of a judgmental sample, an entire account was
       deemed not allowable, we did not expand our testing, but instead questioned the entire
       account.

       For management and administration, although the entire cost category was assessed to
       be high risk, it was made up of several different accounts. We reviewed the individual
       accounts that comprised management and administration from a risk perspective, based
       upon dollar value of the account and/or nature of expenses included in the account.
       Those individual accounts deemed to be high risk were judgmentally sampled at high
       risk levels. For salaries and wages, we noted that there were in excess of 10,000
       employees. In order to obtain a representative sample of salaries and wages, we
       separated the total population into strata based upon calendar quarter. A statistical
       sample of employees was selected across all strata.

   •   Subcontracted the physical inspection of a sample of roads and interviews of IRD’s
       subcontractors to an independent chartered public accounting firm with an office located
       in Kabul, Afghanistan.


Internal Control Related to the SPFS

We reviewed IRD’s internal controls related to the SPFS. This review was accomplished
through interviews with management and key personnel, review of policies and procedures,
identifying key controls within significant transaction cycles, and testing those key controls.


Compliance with Agreement Requirements and Applicable Laws and Regulations

We reviewed the Agreement and modifications and documented all compliance requirements
that could have a direct and material effect on the SPFS. We assessed inherent and control
risk as to whether material noncompliance could occur. Based upon our risk assessment, we
designed procedures to test a sample of transactions to ensure compliance.




                                               4
                  INTERNATIONAL RELIEF AND DEVELOPMENT, INC.

                           Financial Audit of Costs Incurred under
                      Cooperative Agreement No. 306-A-00-08-00509-00

                For the Period November 30, 2007 through December 31, 2012


SUMMARY

Corrective Action on Prior Audit Recommendations

We requested all prior audit reports and recommendations in order to evaluate the status of the
prior audit recommendations by reviewing evidence of any corrective actions taken. See the
Review of Prior Audit Recommendations subsection of this Summary for a status of applicable
prior findings.


Special Purpose Financial Statement

In reviewing the SPFS, we performed the following:

   •   Reconciled the costs on the SPFS to the Agreement and general ledger;
   •   Traced receipt of funds to the accounting records; and
   •   Sampled and tested the costs incurred to ensure the costs were allowable, allocable to
       the Agreement and reasonable.


Exit Conference

An exit conference was held on August 6, 2013 via conference call. Participants included MHM,
IRD, SIGAR and USAID. During the exit conference, we discussed the preliminary results of
the audit.


Summary of Results

Our audit of the costs incurred by IRD under the Agreement with USAID identified the following
matters:

Auditor’s Opinion on SPFS

We issued a qualified opinion on the fairness of the presentation of the SPFS based upon the
identification of $14,179,351 of questioned costs, which represents a material misstatement of
the SPFS. Included within this questioned cost amount was the loss of Federal funds totaling
$41,201 resulting from an employee theft and non-clearance of the employee’s advance. The
ultimate determination of whether the identified questioned costs are to be accepted or
disallowed rests with USAID.




                                              5
                    INTERNATIONAL RELIEF AND DEVELOPMENT, INC.

                             Financial Audit of Costs Incurred under
                        Cooperative Agreement No. 306-A-00-08-00509-00

                   For the Period November 30, 2007 through December 31, 2012


SUMMARY

Questioned Costs

There are two categories of questioned costs, ineligible and unsupported. Ineligible costs are
those costs that are deemed to not be allowable in accordance with the terms of the Agreement
and applicable laws and regulations, including 22 CFR 226 and OMB Circular A-122.
Unsupported costs are those costs for which no or inadequate supporting documentation was
provided for our review. A summary of questioned costs is as follows.

Ineligible Costs

   •   Settlement of a claim and incurring costs after a Termination for Default was issued were
       charged to the Agreement under the road rehabilitation cost category. Total ineligible
       costs were $1,982,100. See Finding 2013-3 in the Findings and Responses section of
       this report.

   •   Road rehabilitation costs in the amount of $266,835 were incurred subsequent to the
       completion of the period of performance. See Finding 2013-4 in the Findings and
       Responses section of this report.

   •   IRD had a theft of federal funds in the amount $114,584. IRD subsequently received an
       insurance reimbursement in the amount of $80,500, which it used to reduce a future
       claim. The net theft of $34,084, inclusive of associated indirect costs, was $41,201.
       See Finding 2013-5 in the Findings and Responses section of this report.

   •   Costs in the amount of $239,962 related to programs other than the Strategic Provincial
       Roads (SPR) program were charged to the Agreement. See Finding 2013-6 in the
       Findings and Responses section of this report.

   •   Indirect costs in the amount of $45,256 were incorrectly charged as a direct cost. See
       Finding 2013-7 in the Findings and Responses section of this report.

   •   Non-allowable entertainment expenses in the amount of $4,885 were charged to the
       Agreement. See Finding 2013-10 in the Findings and Responses section of this report.

Unsupported Costs

   •   Procurement practices related to the road rehabilitation projects were not consistently
       followed, which resulted in questioned costs of $7,378,362. See Finding 2013-1 in the
       Findings and Responses section of this report.




                                               6
                  INTERNATIONAL RELIEF AND DEVELOPMENT, INC.

                            Financial Audit of Costs Incurred under
                       Cooperative Agreement No. 306-A-00-08-00509-00

                 For the Period November 30, 2007 through December 31, 2012


SUMMARY

   •   IRD reported Road #11 as complete when photographs indicated it was not complete
       resulting in $3,233,921 of questioned costs. See Finding 2013-2 in the Findings and
       Responses section of this report.

   •   Lack of approvals for road rehabilitation costs in the amount of $795,716 resulted in
       questioned costs. See Finding 2013-4 in the Findings and Responses section of this
       report.

   •   IRD could not provide records, or provided insufficient records, to support transactions
       selected for testing in the road rehabilitation and management and administration cost
       categories, resulting in total questioned costs of $186,684. See Finding 2013-8 in the
       Findings and Responses section of this report.

   •   IRD disposed of 12 assets totaling $2,676 for which there was no record of disposal, 3
       assets totaling $1,130 which were lost, and 5 assets totaling $623 which were damaged.
       The total cost of the disposed, lost and/or damaged assets was $4,429. The disposition,
       loss, and/or damage of these assets was not communicated to USAID. See Finding
       2013-11 in the Findings and Responses section of this report.

Total questioned costs as a result of our audit are as follows:

       Ineligible costs                       $ 2,580,239
       Unsupported costs                       11,599,112

        Total questioned costs                $14,179,351


Internal Control Findings

Internal control findings are classified into three categories: deficiency, significant deficiency,
and material weakness. A deficiency in internal control exists when the design or operation of a
control does not allow management or employees, in the normal course of performing their
assigned functions, to prevent, or detect and correct, misstatements on a timely basis. A
significant deficiency is a deficiency, or a combination of deficiencies, in internal control that is
less severe than a material weakness, yet important enough to merit attention by those charged
with governance. A material weakness is a deficiency, or a combination of deficiencies, in
internal control, such that there is a reasonable possibility that a material misstatement of the
SPFS will not be prevented, or detected and corrected on a timely basis. A summary of the
internal control findings noted as a result of the audit are as follows:




                                                 7
                 INTERNATIONAL RELIEF AND DEVELOPMENT, INC.

                            Financial Audit of Costs Incurred under
                       Cooperative Agreement No. 306-A-00-08-00509-00

                For the Period November 30, 2007 through December 31, 2012


SUMMARY

Material Weaknesses

The following material weaknesses were reported:

      Finding                                                                      Auditee’s
      Number             Internal Control Finding – Material Weaknesses           Concurrence
      2013-1       Procurement practices related to the road rehabilitation        Disagree
                   projects were not consistently followed, which resulted in
                   questioned costs of $7,378,362.

       2013-2      IRD reported Road #11 as complete, but recent                   Disagree
                   photographs suggest otherwise, resulting in $3,233,921 of
                   questioned costs.

       2013-3      Settlement of a claim and costs incurred after a                Disagree
                   Termination for Default resulted in $1,982,100 in
                   questioned costs.

       2013-4      Road rehabilitation costs in the amount of $266,835 were        Disagree
                   incurred after the period of performance of the subcontract.
                   Additionally, road rehabilitation costs in the amount of
                   $795,716 were paid without proper approvals.

       2013-5      IRD had a theft of federal funds which was charged to the       Disagree
                   Agreement in the net amount of $41,201.

       2013-6      IRD charged $239,962 for costs that were not related to the     Disagree
                   Agreement.

       2013-7      IRD charged $45,256 as direct costs to the SPR program          Disagree
                   that should have been booked as indirect costs.


Significant Deficiencies

The following significant deficiencies were reported:

      Finding                                                                      Auditee’s
      Number             Internal Control Finding – Significant Deficiency        Concurrence
      2013-8       IRD could not provide records, or provided insufficient         Disagree
                   records, to support transactions selected for testing in the
                   road rehabilitation and management and administration


                                                 8
                 INTERNATIONAL RELIEF AND DEVELOPMENT, INC.

                           Financial Audit of Costs Incurred under
                      Cooperative Agreement No. 306-A-00-08-00509-00

                For the Period November 30, 2007 through December 31, 2012


SUMMARY

      Finding                                                                     Auditee’s
      Number            Internal Control Finding – Significant Deficiency        Concurrence
                  cost categories, resulting in total questioned costs of
                  $186,684.
       2013-9     IRD did not maintain required documentation, such as              Agree
                  progress reports, pre-award conference minutes and
                  contractual modifications, which were either not signed or
                  not submitted timely, for selected COCB grants and road
                  rehabilitation costs.

      2013-10     Unallowable entertainment expenses in the amount of              Partially
                  $4,885 were charged to the Agreement.                             Agree

      2013-11     IRD did not retain support for disposed, lost and damaged       Disagree
                  equipment totaling $4,429, nor notify USAID of the status of
                  the equipment.

      2013-12     Prior to October 2010, IRD did not conduct reviews of the         Agree
                  Excluded Parties List System in order to identify vendors
                  that may be suspended, debarred or otherwise excluded
                  from receiving Federal funds.


Deficiencies

No deficiencies were reported.

The complete management responses from IRD to each of the internal control findings can be
found in Appendix A to this report.


Compliance Findings

As part of obtaining reasonable assurance about whether the SPFS is free from material
misstatement, we performed tests of its compliance with certain provisions of the Agreement
and other laws and regulations, noncompliance with which could have a direct and material
effect on the determination of SPFS. The results of our tests disclosed the following compliance
findings as described in the Findings and Responses section of this report.




                                               9
              INTERNATIONAL RELIEF AND DEVELOPMENT, INC.

                       Financial Audit of Costs Incurred under
                  Cooperative Agreement No. 306-A-00-08-00509-00

             For the Period November 30, 2007 through December 31, 2012


SUMMARY

   Finding                                                                     Auditee’s
   Number                          Compliance Finding                         Concurrence
   2013-1      Procurement practices related to the road rehabilitation        Disagree
               projects were not consistently followed, which resulted in
               questioned costs of $7,378,362.

   2013-2      IRD reported Road #11 as complete, but recent                   Disagree
               photographs suggest otherwise, resulting in $3,233,921 of
               questioned costs.

   2013-3      Settlement of a claim and costs incurred after a                Disagree
               Termination for Default resulted in $1,982,100 in
               questioned costs.

   2013-4      Road rehabilitation costs in the amount of $266,835 were        Disagree
               incurred after the period of performance of the subcontract.
               Additionally, road rehabilitation costs in the amount of
               $795,716 were paid without proper approvals.

   2013-6      IRD charged $239,962 for costs that were not related to the     Disagree
               Agreement.

   2013-7      IRD charged $45,256 to SPR direct expenses; however             Disagree
               these charges should have been recorded as an indirect
               cost.

   2013-9      IRD did not maintain required documentation, such as              Agree
               progress reports, pre-award conference minutes and
               contractual modifications, which were either not signed or
               not submitted timely, for selected COCB grants and road
               rehabilitation costs.

   2013-10     Unallowable entertainment expenses in the amount of              Partially
               $4,885 were charged to the Agreement.                             Agree

   2013-11     IRD did not retain support for disposed, lost and damaged       Disagree
               equipment totaling $4,429, nor notify USAID of the status of
               the equipment.

   2013-12     Prior to October 2010, IRD did not conduct reviews of the         Agree
               Excluded Parties List System in order to identify vendors
               that may be suspended, debarred or otherwise excluded


                                           10
                  INTERNATIONAL RELIEF AND DEVELOPMENT, INC.

                           Financial Audit of Costs Incurred under
                      Cooperative Agreement No. 306-A-00-08-00509-00

                 For the Period November 30, 2007 through December 31, 2012


SUMMARY

       Finding                                                                      Auditee’s
       Number                         Compliance Finding                           Concurrence
                   from receiving Federal funds.


The complete management responses from IRD to each of the compliance findings can be
found in Appendix A to this report.


Summary of IRD’s Responses to Findings

The following represents a summary of the responses provided by IRD to the audit and findings
identified in this report. The complete responses received can be found in Appendix A to this
report.

   •   IRD provided general management responses to the audit indicating: (1) Finding 2013-
       10 and 2013-11 should not be classified as significant deficiencies; (2) the finding
       identified in the Review of Prior Findings and Recommendation section of this report
       regarding expenditures that were recorded in the period paid instead of the period
       incurred is not within the scope of this audit; and (3) the finding identified in the Review
       of Prior Findings and Recommendation section of this report regarding controls over
       approval of payments to subcontractors not being resolved is incorrect since none of the
       findings in this report included the same condition.

   •   Finding 2013-1: IRD disagrees with the finding and recommendations for several
       reasons. For road rehabilitation projects, IRD indicated that evidence was provided to
       show either the construction projects were awarded to the highest ranked bidder, or
       justification to explain why the highest ranked bidder was not selected was documented.
       For COBC Subgrants, IRD indicated the grants were awarded following the evaluation
       process and criteria described in the solicitation document and that it was awarded on a
       best value award instead of cost, and there is no requirement that the subgrant must be
       awarded to the lowest bidder. For COBC Contracts, IRD indicated that sufficient
       documentation and justification was provided as to why the contracts were awarded to
       the subcontractors. Finally, for management and administration costs, IRD indicated
       that its procurement process was properly followed and was in accordance with
       procurement guidelines set forth by USAID and/or IRD.

   •   Finding 2013-2: IRD disagrees with the finding and recommendations. It believes that
       the photographs depicted in the audit report cannot be verified as there is no proof to
       substantiate the location of where the photographs were taken. In addition, there is a
       lack of proof that the depth or density of the base course layer was inspected. Finally,
       IRD indicated that at the completion of the road construction, the road was inspected by


                                               11
                INTERNATIONAL RELIEF AND DEVELOPMENT, INC.

                          Financial Audit of Costs Incurred under
                     Cooperative Agreement No. 306-A-00-08-00509-00

               For the Period November 30, 2007 through December 31, 2012


SUMMARY

      the Ministry of Public Works in Afghanistan, USAID, and a third party technical
      engineering consultant. Additionally, given that the auditor’s inspection occurred two
      years after the completion of the road, the road might be deteriorated and there exists
      contemporaneous evidence depicting the progress and completion of the road. IRD also
      states that they completed the “punch list” provided by the third party engineering
      consultant, and that USAID accepted the completed road.

  •   Finding 2013-3:        IRD disagrees with various components of the finding and
      recommendations. It indicated that the cost for unpaid construction work was verified
      prior to the submittal of the termination for settlement. In addition, IRD states that this
      claim settlement was noted as already paid in progress payments, and not included in
      the contractor’s final termination settlement.

  •   Finding 2013-4: IRD disagrees with the finding and recommendations for various
      reasons including the period of performance was extended, approval for payment
      applications were obtained, and proper approvals from all levels of management were
      not obtained due to staff turnover or relocation.

  •   Finding 2013-5: IRD disagrees with the finding and recommendations. It indicated only
      $75,000 of the $114,584 was due to the theft, and the remaining questioned amount
      represented legitimate expenses or were never charged to the SPR program.
      Additionally, the $75,000 was credited to the SPR project in December 2010. Finally, it
      disagrees that IRD’s internal control over cash was not adequate since the dollar amount
      of the loss is immaterial.

  •   Finding 2013-6: IRD disagrees with the recommendation. It indicated that the amount it
      misclassified and incorrectly posted was correctly reclassified and posted subsequent to
      the audit period.

  •   Finding 2013-7: IRD disagrees with the finding and recommendation. It indicated the
      cost in question was not included in both the indirect cost pool and as a direct cost of the
      project, but rather it was an indirect cost that was erroneously charged as direct cost.
      Also, the amount was properly reclassified to the indirect cost pool subsequent to the
      audit period.

  •   Finding 2013-8: IRD disagrees with various components of this finding. It provided
      further clarification and explanations as to why the documentation was missing or
      insufficient.

  •   Finding 2013-9: IRD agrees to the finding and recommendation and that it could make
      improvement in its records management system.



                                              12
                 INTERNATIONAL RELIEF AND DEVELOPMENT, INC.

                           Financial Audit of Costs Incurred under
                      Cooperative Agreement No. 306-A-00-08-00509-00

                For the Period November 30, 2007 through December 31, 2012


SUMMARY

   •   Finding 2013-10: IRD disagrees that all costs questioned were prohibited entertainment
       expenses as some of the costs represented food purchased for staff as normal life
       support, and the fact that it was purchased on a holiday does not make the food costs
       ineligible.

   •   Finding 2013-11: IRD disagrees with the finding indicating that 22 CFR 22.2 defines
       equipment as having an acquisition cost of $5,000 or more.

   •   Finding 2013-12: IRD agrees with the finding. Beginning in 2010, the SPR projects
       began verifying all third party purchases and services in the Excluded Party List System
       (EPLS) system, and that policies and procedures were incorporated into the IRD
       procurement policy.


Review of Prior Findings and Recommendations

We reviewed the corrective actions taken to address findings and recommendations from
previous engagements that could have a material effect on the SPFS. There were two prior
engagements with findings and recommendations that were included in the scope of our audit.
These engagements identified two findings with a potential material effect on the SPFS. Based
upon our review, adequate corrective action was implemented on one of the two prior findings.


Single Audit Act Report

IRD provided its Single Audit Act Report for the year ended December 31, 2011. One
significant deficiency was noted whereby IRD recorded certain expenditures on a cash basis
instead of on an accrual basis. IRD has revised its procedures to ensure that all expenses are
recorded in the period the expense is incurred as opposed to the period in which the expense
was paid. Based upon our audit, IRD is properly recording expenses on the accrual basis of
accounting. As such, the corrective action has been adequately implemented.


USAID/Office of Inspector General (OIG) Financial Audit of Local Costs for SPR-SEA
Program for Period October 1, 2009 to September 30, 2010

USAID’s OIG contracted with an independent audit firm to conduct a financial audit of the Fund
Accountability Statement for the period October 1, 2009 through September 30, 2010. The
OIG’s audit contained two scope limitations, one in that the roads could not be physically
inspected, and the second in that there was no line item budget available. Both of these scope
limitations were removed in our audit in that we physically observed a sample of the roads, and




                                              13
                 INTERNATIONAL RELIEF AND DEVELOPMENT, INC.

                           Financial Audit of Costs Incurred under
                      Cooperative Agreement No. 306-A-00-08-00509-00

                For the Period November 30, 2007 through December 31, 2012


SUMMARY

we utilized the high level budget contained in the Agreement for purposes of determining
spending limitations.

The results of the USAID OIG audit identified one significant deficiency related to controls over
the approval of payments to subcontractors. We noted a similar condition as documented in
Finding 2013-4 in the Finding and Responses section. As such, the corrective action
implemented was not adequate to address this deficiency.




                                               14
Board of Directors
International Relief and Development, Inc.
1621 North Kent Street
Arlington, Virginia 22209



                        INDEPENDENT AUDITORS’ REPORT
                   ON SPECIAL PURPOSE FINANCIAL STATEMENT


Report on the Special Purpose Financial Statement

We have audited the accompanying Special Purpose Financial Statement of International Relief
and Development, Inc. (IRD) under Cooperative Agreement No. 306-A-00-08-00509-00
(Agreement) with the United States Agency for International Development (USAID) for the
period November 30, 2007 through December 31, 2012, and the related notes to the Special
Purpose Financial Statement.


Management’s Responsibility for the Special Purpose Financial Statement

Management is responsible for the preparation and fair presentation of the Special Purpose
Financial Statement in accordance with the methods of preparation described in Note 2; this
includes the design, implementation, and maintenance of internal control relevant to the
preparation and fair presentation of financial statements (including the Special Purpose
Financial Statement) that are free from material misstatement, whether due to fraud or error.


Auditors’ Responsibility

Our responsibility is to express an opinion on the Special Purpose Financial Statement based
on our audit. We conducted our audit in accordance with auditing standards generally accepted
in the United States of America and the standards applicable to financial audits contained in
Government Auditing Standards, issued by the Comptroller General of the United States, except
as it relates to continuing education and peer review requirements as discussed in the following
paragraph. Those standards require that we plan and perform the audit to obtain reasonable
assurance about whether the Special Purpose Financial Statement is free from material
misstatement.




                                              15
Board of Directors
International Relief and Development, Inc.
1621 North Kent Street
Arlington, Virginia 22209

Government Auditing Standards require, among other things, that auditors performing audits in
accordance with Government Auditing Standards obtain 24 hours of continuing professional
education every 2 years that directly relates to governmental auditing, and the audit
organization have an external peer review performed by reviewers independent of the
organization at least once every three years. We subcontracted a portion of the audit to an
independent chartered public accounting firm with an office located in Kabul, Afghanistan. The
work performed by our subcontractor consisted of conducting interviews of subcontractors of
IRD and physically observing the existence of a sample of roads, which we judgmentally
selected. Our subcontractor was not involved in the planning, directing or reporting aspects of
the audit. Our subcontractor did not meet the continuing professional education requirements or
peer review requirements as outlined in Government Auditing Standards, as the firm is located
and licensed outside of the United States of America. The results of the audit were not likely
affected as we directed the procedures performed and reviewed the work completed by our
subcontractor.

An audit involves performing procedures to obtain audit evidence about the amounts and
disclosures in the Special Purpose Financial Statement. The procedures selected depend on
the auditor’s judgment, including the assessment of the risks of material misstatement of the
Special Purpose Financial Statement, whether due to fraud or error. In making those risk
assessments, the auditor considers internal control relevant to the entity’s preparation and fair
presentation of the Special Purpose Financial Statement in order to design audit procedures
that are appropriate in the circumstances, but not for the purpose of expressing an opinion on
the effectiveness of the entity’s internal control. Accordingly, we express no such opinion. An
audit also includes evaluating the appropriateness of accounting policies used and the
reasonableness of significant accounting estimates made by management, as well as
evaluating the overall presentation of the Special Purpose Financial Statement.

We believe that the audit evidence we have obtained is sufficient and appropriate to provide a
basis for our audit opinion.


Basis for Qualified Opinion

We identified several transactions totaling $14,179,351 that were questionable based upon our
review of the underlying support for the specified transactions. Included within this questioned
cost amount was the loss of Federal funds totaling $41,201 resulting from an employee theft
and non-clearance of the employee’s advance. The ultimate determination of whether the
identified questioned costs are to be accepted or disallowed rests with USAID.


Qualified Opinion

In our opinion, except for the possible effects of the matter described in the Basis for Qualified
Opinion paragraph, the Special Purpose Financial Statement referred to above presents fairly,
in all material respects, the respective revenue received and costs incurred by IRD under the
Agreement for the period November 30, 2007 through December 31, 2012 in accordance with
the basis of accounting described in Note 2.




                                               16
Board of Directors
International Relief and Development, Inc.
1621 North Kent Street
Arlington, Virginia 22209

Other Reporting Required by Government Auditing Standards

In accordance with Government Auditing Standards, we have also issued our reports dated
February 5, 2014 on our consideration of IRD's internal control over financial reporting and on
our tests of its compliance with certain provisions of laws, regulations, contracts, and grant
agreements and other matters. The purpose of those reports is to describe the scope of our
testing of internal control over financial reporting and compliance and the results of that testing,
and not to provide an opinion on internal control over financial reporting or on compliance.
Those reports are an integral part of an audit performed in accordance with Government
Auditing Standards in considering IRD’s internal control over financial reporting and compliance.


Restriction on Use

This report is intended for the information of International Relief and Development, Inc., the
United States Agency for International Development, and the Special Inspector General for
Afghanistan Reconstruction. Financial information in this report may be privileged. The
restrictions of 18 USC 1905 should be considered before any information is released to the
public.




Irvine, California
February 5, 2014




                                                17
                             INTERNATIONAL RELIEF AND DEVELOPMENT, INC.
                                       Financial Audit of Costs Incurred under
                                  Cooperative Agreement No. 306-A-00-08-00509-00

                                           Special Purpose Financial Statement

                            For the Period November 30, 2007 through December 31, 2012



                                                                                         Questioned Costs
                                  Budget              Actual            Ineligible        Unsupported            Total           Notes
Revenues:
  306-A-00-08-00509-00       $ 497,535,342      $ 317,448,948       $                -   $              -   $                -    (4)

Total revenues                   497,535,342        317,448,948                 -                   -                    -

Costs incurred:
  Road rehabilitation            387,478,154        205,787,450         2,248,935             9,885,974         12,134,909        (A)
  Community outreach
   and capacity building          32,397,780         23,895,747             41,201            1,528,848          1,570,049        (B)
  Management and
   administration                 77,659,408         87,765,751            290,103             184,290            474,393         (C)

Total costs incurred             497,535,342        317,448,948         2,580,239            11,599,112         14,179,351

Outstanding balance          $             -    $              -    $ (2,580,239) $ (11,599,112) $ (14,179,351)                   (9)




                             See Notes to Special Purpose Fund Accountability Statement
              and Notes to Questioned Costs Presented on Special Purpose Fund Accountability Statement

                                                               18
                  INTERNATIONAL RELIEF AND DEVELOPMENT, INC.

                            Financial Audit of Costs Incurred under
                       Cooperative Agreement No. 306-A-00-08-00509-00

                          Notes to Special Purpose Financial Statement1

                For the Period November 30, 2007 through December 31, 2012


(1)    Basis of Presentation

       The accompanying Special Purpose Financial Statement (SPFS) includes costs incurred
       under Cooperative Agreement 306-A-00-08-00509-00 for the period November 30, 2007
       through December 31, 2012 (excluding entries posted after IRD submitted SF-425 to
       USAID). Because the SPFS presents only a selected portion of the operations of IRD, it
       is not intended to and does not present the financial position, changes in net assets, or
       cash flows of IRD. The information in the SPFS is presented in accordance with the
       requirements specified by the Special Inspector General for Afghanistan Reconstruction
       (SIGAR), accounting principles generally accepted in the United States of America, and
       is specific to the aforementioned cooperative agreement. As such, the SPFS does not
       contain any entries related to the SPR program that may have been recorded in the
       2012 IRD accounting period 13 and included in the IRD Holdings Audited Consolidated
       Financial Statements. Therefore, some amounts presented in this Statement will differ
       from amounts presented in, or used in the preparation of, the basic financial statements.


(2)    Basis of Accounting

       Expenditures reported on the SPFS are required to be presented in accordance with
       accounting principles generally accepted in the United States of America and, therefore,
       are reported on the accrual basis of accounting. Such expenditures are recognized
       following the cost principles contained in OMB Circular A-122, Cost Principles for Non-
       Profit Organizations.


(3)    Foreign Currency Conversion Method

       For purposes of preparing the SPFS, IRD applies an average monthly rate based upon
       the bank rates used to transfer funds between U.S. dollar account and Afghanis account
       (the local currency).


(4)    Revenues

       As of December 31, 2012, IRD has reported $317,448,948 in revenue. This revenue
       equals total expenditures reported to USAID on the December 31, 2012 SF-425. For the
       period November 30, 2007 through December 31, 2012, IRD has drawn a total of
       $290,239,689 from its USAID issued letter of Credit.
1
The Notes to the Special Purpose Financial Statement are the responsibility of IRD.




                                                  19
                 INTERNATIONAL RELIEF AND DEVELOPMENT, INC.

                          Financial Audit of Costs Incurred under
               Associate Cooperative Agreement No. 306-A-00-08-00509-00

                       Notes to Special Purpose Financial Statement

                                        (Continued)


(4)   Revenues (Continued)

      As of December 31, 2012, there was an outstanding receivable due from USAID in the
      amount of $27,209,259. This receivable consisted of pending claim settlements with
      road subcontractors for approximately $25,962,678, and an additional $1,246,581 in
      other accrued expenses for which funds have not been drawn from the Federal letter of
      credit as of December 31, 2012.


(5)   Costs Incurred by Budget Category

      The budget categories presented and associated amounts reflect the budget line items
      presented within the final, USAID-approved Agreement budget.


(6)   Currency

      All amounts presented are shown in U.S. dollars, the reporting currency of IRD. Costs
      incurred in a foreign country and recorded in a foreign currency have been converted to
      U.S. dollars consistent with IRD’s foreign currency conversion policy.


(7)   Status of Financial Reporting to USAID

      The SPFS, as presented, reflects all SF-425s submitted to USAID as of December 31,
      2012. The Agreement has not been closed and costs continue to be incurred.


(8)   Indirect Costs

      IRD has claimed indirect costs totaling $22,555,806 for the period November 30, 2007
      through December 31, 2012. The indirect costs are not included as a separate line item
      on the SPFS, but are included as a component of each cost category presented. The
      negotiated indirect rates were as follows. IRD did not have an approved final rate for
      2012 as of December 21, 2012. As such, IRD continues to use the approved provisional
      rate for 2012.




                                            20
                INTERNATIONAL RELIEF AND DEVELOPMENT, INC.

                           Financial Audit of Costs Incurred under
                Associate Cooperative Agreement No. 306-A-00-08-00509-00

                        Notes to Special Purpose Financial Statement

                                           (Continued)


(8)   Indirect Costs (Continued)

                               Effective Period
                                                         Fringe
              Type           From         Through      Benefits (a)   Overhead (b)
          Final             01/01/07      12/31/07      44.31%          18.79%
          Final             01/01/08      12/31/08      47.34%          18.89%
          Final             01/01/09      12/31/09      41.60%          20.88%
          Final             01/01/10      12/31/10      41.85%          22.38%
          Provisional       01/01/11      12/31/11      41.51%          23.50%
          Proposed          01/01/12      12/31/12      41.51%          23.50%

      The basis of allocation for the indirect costs is as follows:

         (a) Total regular U.S. labor costs

         (b) Total cost incurred excluding overhead, capital expenditures of $5,000 and
             greater, project vehicle purchases, in-kind contribution of goods and services, all
             subawards in excess of $25,000 (regardless of the period covered by the
             subawards).


(9)   Outstanding Fund Balance

      As of December 31, 2012, there was no outstanding fund balance under the Agreement
      as the SPFS is prepared under the accrual basis of accounting as described in Note 2.




                                                  21
                    INTERNATIONAL RELIEF AND DEVELOPMENT, INC.

                             Financial Audit of Costs Incurred under
                        Cooperative Agreement No. 306-A-00-08-00509-00

        Notes to Questioned Costs Presented on Special Purpose Financial Statement2

                   For the Period November 30, 2007 through December 31, 2012


There are two categories of questioned costs, ineligible and unsupported. Ineligible costs are
those costs that are deemed to not be allowable in accordance with the terms of the Agreement
and applicable laws and regulations. Unsupported costs are those costs for which no or
inadequate supporting documentation was provided for our review.


(A)    Road Rehabilitation Questioned Costs

       IRD reported road rehabilitation costs in the amount of $205,787,450 for the period
       November 30, 2007 through December 31, 2012. IRD was required to construct 48
       roads under the Agreement. During our review of these costs, we noted the following
       which resulted in questioned costs:

                                                                                 Questioned Costs
         Finding                                                Ineligible        Unsupported
         Number                    Observation                    Costs              Costs            Total
         2013-1      Lack of adherence to procurement
                       procedures including lack of
                       competitive bidding and
                       documentation for award decisions       $             -      $5,836,070      $5,836,070
          2013-2     Incomplete road construction                            -       3,233,921       3,233,921
          2013-3     Costs incurred after termination notice
                       and inadequately supported costs         1,982,100                    -       1,982,100
          2013-4     Costs incurred after period of
                       performance and costs not properly
                       approved                                    266,835             795,716       1,062,551
          2013-8     No support for Third Country National
                       salaries and wages                                    -          20,267         20,267

           Total questioned costs                              $2,248,935           $9,885,974   $12,134,909

       Details of the specific observations noted can be found in the specific findings in the
       Findings and Responses section of this report.


(B)    Community Outreach and Capacity Building Questioned Costs

       IRD reported Community Outreach and Capacity Building (COCB) costs in the amount
       of $23,895,747 for the period November 30, 2007 through December 31, 2012. During
       our review of these costs, we noted the following which resulted in questioned costs:
2
 The Notes to Questioned Costs presented on the Special Purpose Financial Statement were prepared
by the auditor for informational purposes only and as such are not part of the audited Special Purpose
Financial Statement.



                                                    22
                 INTERNATIONAL RELIEF AND DEVELOPMENT, INC.

                            Financial Audit of Costs Incurred under
                 Associate Cooperative Agreement No. 306-A-00-08-00509-00

       Notes to Questioned Costs Presented on Special Purpose Financial Statement

                                           (Continued)


(B)   Community Outreach and Capacity Building Questioned Costs (Continued)

                                                                            Questioned Costs
       Finding                                             Ineligible        Unsupported
       Number                  Observation                   Costs              Costs            Total
       2013-1     Lack of adherence to procurement
                   procedures including lack of
                   competitive bidding and
                   documentation for award decisions       $        -          $1,528,848      $1,528,848
        2013-5    Lack of adequate cash disbursement
                   controls resulting in employee theft        41,201                      -      41,201

         Total questioned costs                            $41,201             $1,528,848      $1,570,049

      Details of the specific observations noted can be found in the specific findings in the
      Findings and Responses section of this report.


(C)   Management and Administration Questioned Costs

      IRD reported management and administration costs in the amount of $87,765,751 for
      the period November 30, 2007 through December 31, 2012. During our review of these
      costs, we noted the following which resulted in questioned costs:

                                                                            Questioned Costs
       Finding                                             Ineligible        Unsupported
       Number                   Observation                  Costs              Costs            Total
       2013-1     Lack of adherence to procurement
                    procedures including lack of
                    competitive bidding and
                    documentation for award decisions      $            -       $ 13,444       $ 13,444
       2013-6     Non-SPR expenses charged to the
                    Agreement                                  239,962                 -         239,962
       2013-7     Indirect costs charged as direct costs        45,256                 -          45,256
       2013-8     Missing or insufficient documentation
                    provided to support costs claimed                   -        166,417         166,417
       2013-10    Entertainment expenses were charged
                    to the Agreement                             4,885                 -           4,885
       2013-11    Lack of support for disposed, lost
                    and/or damaged assets                               -          4,429           4,429

        Total questioned costs                             $290,103             $184,290       $474,393




                                                23
               INTERNATIONAL RELIEF AND DEVELOPMENT, INC.

                          Financial Audit of Costs Incurred under
               Associate Cooperative Agreement No. 306-A-00-08-00509-00

       Notes to Questioned Costs Presented on Special Purpose Financial Statement

                                        (Continued)


(C)   Management and Administration Questioned Costs (Continued)

      Details of the specific observations noted can be found in the specific findings in the
      Findings and Responses section of this report.




                                            24
            REPORT ON INTERNAL CONTROL OVER FINANCIAL REPORTING
                  BASED ON AN AUDIT OF THE SPECIAL PURPOSE
               FINANCIAL STATEMENT PERFORMED IN ACCORDANCE
                    WITH GOVERNMENT AUDITING STANDARDS



                          INDEPENDENT AUDITOR’S REPORT


Board of Directors
International Relief and Development, Inc.
1621 North Kent Street
Arlington, Virginia 22209


We have audited, in accordance with the auditing standards generally accepted in the United
States of America and the standards applicable to financial audits contained in Government
Auditing Standards issued by the Comptroller General of the United States, the Special Purpose
Financial Statement of the International Relief and Development, Inc. (IRD) representing
revenues received and costs incurred under Cooperative Agreement No. 306-A-00-08-00509-00
with the United States Agency for International Development (USAID) for the period November
30, 2007 through December 31, 2012, and the related Notes to the Special Purpose Financial
Statement, and have issued our report thereon dated February 5, 2014, except as it relates to
continuing education and peer review requirements as discussed in the following paragraph.

Government Auditing Standards require, among other things, that auditors performing audits in
accordance with Government Auditing Standards obtain 24 hours of continuing professional
education every 2 years that directly relates to governmental auditing, and the audit
organization have an external peer review performed by reviewers independent of the
organization at least once every three years . We subcontracted a portion of the audit to an
independent chartered public accounting firm with an office located in Kabul, Afghanistan. The
work performed by our subcontractor consisted of conducting interviews of subcontractors of
IRD and physically observing the existence of a sample of roads, which we judgmentally
selected. Our subcontractor was not involved in the planning, directing or reporting aspects of
the audit. Our subcontractor did not meet the continuing professional education requirements or
peer review requirements as outlined in Government Auditing Standards, as the firm is located
and licensed outside of the United States of America. The results of the audit were not likely
affected as we directed the procedures performed and reviewed the work completed by our
subcontractor.




                                              25
Board of Directors
International Relief and Development, Inc.
1621 North Kent Drive
Arlington, Virginia 22209

Internal Control over Financial Reporting

In planning and performing our audit of the Special Purpose Financial Statement, we considered
IRD's internal control over financial reporting (internal control) to determine the audit procedures
that were appropriate in the circumstances for the purpose of expressing our opinion on the
Special Purpose Financial Statement, but not for the purpose of expressing an opinion on the
effectiveness of IRD’s internal control. Accordingly, we do not express an opinion on the
effectiveness of IRD’s internal control.

Our consideration of internal control over financial reporting was for the limited purpose
described in the first paragraph of this section and was not designed to identify all deficiencies
in internal control might be material weaknesses or significant deficiencies and therefore,
material weaknesses or significant deficiencies may exist that were not identified. However, as
described in the accompanying Findings and Responses, we identified certain deficiencies in
internal control that we consider to be material weaknesses and significant deficiencies.

A deficiency in internal control exists when the design or operation of a control does not allow
management or employees, in the normal course of performing their assigned functions, to
prevent, or detect and correct misstatements on a timely basis. A material weakness is a
deficiency, or a combination of deficiencies, in internal control such that there is a reasonable
possibility that a material misstatement of the entity’s Special Purpose Financial Statement will
not be prevented, or detected and corrected on a timely basis. We consider the deficiencies
described in the accompanying Findings and Reponses as Findings 2013-1 through 2013-7 to
be material weaknesses. As we performed our testing, we considered whether the information
obtained during our testing indicated the possibility of fraud or abuse. Evidence of possible
fraud or abuse was not indicated by our testing, except as noted in Findings 2013-1, 2013-2 and
2013-5.

A significant deficiency is a deficiency, or a combination of deficiencies, in internal control that is
less severe than a material weakness, yet important enough to merit attention by those charged
with governance. We consider the deficiencies described in the accompanying Findings and
Responses as Findings 2013-8 through 2013-12 to be significant deficiencies.


IRD’s Response to Findings

IRD’s response to the findings identified in our audit is described in the accompanying Findings
and Responses, and included verbatim in Appendix A. IRD’s response was not subjected to the
auditing procedures applied in the audit of the Special Purpose Financial Statement and,
accordingly, we express no opinion on it.




                                                  26
Board of Directors
International Relief and Development, Inc.
1621 North Kent Drive
Arlington, Virginia 22209

Purpose of this Report

The purpose of this report is solely to describe the scope of our testing of internal control and
the result of that testing, and not to provide an opinion on the effectiveness of the IRD’s internal
control. This report is an integral part of an audit performed in accordance with Government
Auditing Standards in considering the entity’s internal control. Accordingly, this communication
is not suitable for any other purpose.

Additionally, this report is intended for the information of International Relief and Development,
Inc., USAID, and SIGAR. Financial information in this report may be privileged. The restrictions
of 18 USC 1905 should be considered before any information is released to the public.




Irvine, California
February 5, 2014




                                                27
                    REPORT ON COMPLIANCE AND OTHER MATTERS
                    BASED ON AN AUDIT OF THE SPECIAL PURPOSE
                 FINANCIAL STATEMENT PERFORMED IN ACCORDANCE
                      WITH GOVERNMENT AUDITING STANDARDS



                          INDEPENDENT AUDITORS’ REPORT


Board of Directors
International Relief and Development, Inc.
1621 North Kent Street
Arlington, Virginia 22209


We have audited, in accordance with the auditing standards generally accepted in the United
States of America and the standards applicable to financial audits contained in Government
Auditing Standards issued by the Comptroller General of the United States, the Special Purpose
Financial Statement of the International Relief and Development, Inc. (IRD) representing
revenues received and costs incurred under Cooperative Agreement No. 306-A-00-08-00509-00
with the United States Agency for International Development (USAID) for the period November
30, 2007 through December 31, 2012, and the related Notes to the Special Purpose Financial
Statement, and have issued our report thereon dated February 5, 2014, except as it relates to
continuing education and peer review requirements as discussed in the following paragraph.

Government Auditing Standards require, among other things, that auditors performing audits in
accordance with Government Auditing Standards obtain 24 hours of continuing professional
education every 2 years that directly relates to governmental auditing, and the audit
organization have an external peer review performed by reviewers independent of the
organization at least once every three years . We subcontracted a portion of the audit to an
independent chartered public accounting firm with an office located in Kabul, Afghanistan. The
work performed by our subcontractor consisted of conducting interviews of subcontractors of
IRD and physically observing the existence of a sample of roads, which we judgmentally
selected. Our subcontractor was not involved in the planning, directing or reporting aspects of
the audit. Our subcontractor did not meet the continuing professional education requirements or
peer review requirements as outlined in Government Auditing Standards, as the firm is located
and licensed outside of the United States of America. The results of the audit were not likely
affected as we directed the procedures performed and reviewed the work completed by our
subcontractor.




                                              28
Board of Directors
International Relief and Development, Inc.
1621 North Kent Street
Arlington, Virginia 22209

Compliance and Other Matters

As part of obtaining reasonable assurance about whether IRD's Special Purpose Financial
Statement is free from material misstatement, we performed tests of its compliance with certain
provisions of laws, regulations, and the aforementioned cooperative agreement, noncompliance
with which could have a direct and material effect on the determination of financial statement
amounts. As we performed our testing, we considered whether the information obtained during
our testing indicated the possibility of fraud or abuse. Evidence of possible fraud or abuse was
not indicated by our testing, except as noted in Findings 2013-1, 2013-2, and 2013-5. However,
providing an opinion on compliance with those provisions was not an objective of our audit, and
accordingly, we do not express such an opinion. The results of our tests disclosed instances of
noncompliance or other matters that are required to be reported under Government Auditing
Standards and which are described in the accompanying Findings and Responses as Findings
2013-1 through 2013-4, 2013-6, 2013-7 and 2013-9 through 2013-12.


IRD’s Response to Findings

IRD’s response to the finding identified in our audit is described in the accompanying Findings
and Responses, and included verbatim in Appendix A. IRD’s response was not subjected to the
auditing procedures applied in the audit of the Special Purpose Financial Statement and,
accordingly, we express no opinion on it.


Purpose of this Report

The purpose of this report is solely to describe the scope of our testing of compliance and the
result of that testing, and not to provide an opinion on compliance. This report is an integral part
of an audit performed in accordance with Government Auditing Standards in considering the
entity’s internal control. Accordingly, this communication is not suitable for any other purpose.

Additionally, this report is intended for the information of International Relief and Development,
Inc., USAID, and SIGAR. Financial information in this report may be privileged. The restrictions
of 18 USC 1905 should be considered before any information is released to the public.




Irvine, California
February 5, 2014




                                                29
                  INTERNATIONAL RELIEF AND DEVELOPMENT, INC.

                            Financial Audit of Costs Incurred under
                       Cooperative Agreement No. 306-A-00-08-00509-00

                                      Findings and Responses

                For the Period November 30, 2007 through December 31, 2012


2013-1: Lack of Adherence to Procurement Procedures

Condition:
IRD was unable to provide records, or provided insufficient records, to support the procurement
efforts within the following accounts that are reported in the Community Outreach and Capacity
Building (COCB), Road Rehabilitation, and Management and Administration cost categories,
resulting in the following questioned costs:

Road Rehabilitation

                                                                                      Questioned
                                     Observation                                        Costs
 Road #18 – Mest to Yahya Khel to Ghundekay Road (Development Organization
  for the Revival of Afghanistan (DORA)):
    The Memorandum of Negotiations (MON) was not printed on IRD letterhead,
       as other MONs were, and lacked proper authorization, and thus was
       deemed to be unreliable. In addition, competitive bidding procedures were
       not properly followed and there was no justification as to why the contract
       was not awarded to the subcontractor with the highest technical and cost
       score. Had the highest scoring bid been selected, the average cost per KM
       would have been $120,295 for a 21 KM road. Applying this average cost to
       the fully-rehabed length of 21KM, the estimated cost to complete this length
       of road would have been $2,526,200. As the total costs paid to DORA for
       completion of 21 KM were $7,245,133, the difference of $4,718,933 has
       been questioned.                                                                $4,718,933

 Road #36 – Tirin Kot Junction to Khas Urzgan (Afghan Omid Construction
  Company):
   There was no Memorandum of Negotiations in the procurement file. Based
     upon evaluation sheets retained, the contract was not awarded to the
     highest ranked bidder. Competitive bidding procedures were not properly
     followed and there was no justification as to why the contract was not
     awarded to the subcontractor with the highest score. The total length of
     road to be built was 106 KM. However, because USAID descoped the
     program, no KMs were completed. As such, we have questioned all costs
     associated with this road.                                                         1,117,137

 Total questioned road rehabilitation costs                                            $5,836,070




                                                   30
                   INTERNATIONAL RELIEF AND DEVELOPMENT, INC.

                             Financial Audit of Costs Incurred under
                        Cooperative Agreement No. 306-A-00-08-00509-00

                                       Findings and Responses

                                               (Continued)


2013-1: Lack of Adherence to Procurement Procedures (Continued)

COCB

                                                                           Number of   Questioned
                                 Observation                                Errors       Costs
  Subgrants:
    No justification for awarding contract to other than the bidder with
     the highest technical and cost score                                     3        $1,152,630

  Contracts:
    No evidence of competitive bidding before IRD requested that the
    contract be awarded                                                       1          355,338

  Total COCB questioned costs                                                 4        $1,507,968

Management and Administration

                                                                           Number of    Questioned
                               Observation                                  Errors        Costs

 Office equipment:
    Competitive bids solicited, but documents not retained                     1         $10,800

 Office utilities:
    No evidence as to why contract was not awarded to lowest bidder            1             500

 Total questioned management and administration                                2         $11,300

Total questioned cost due to lack of adherence to procurement procedures are $7,355,338.


Cause:
IRD management did not adequately monitor its procurement efforts by requiring decisions
regarding award to be clearly documented when a subcontract was awarded to a bidder other
than the one with the highest score.


Criteria:
22 CFR 226.46, Procurement records, states in part:

       “Procurement records and files for purchases in excess of the small purchase
       threshold shall include the following at a minimum:




                                                    31
                 INTERNATIONAL RELIEF AND DEVELOPMENT, INC.

                           Financial Audit of Costs Incurred under
                      Cooperative Agreement No. 306-A-00-08-00509-00

                                    Findings and Responses

                                              (Continued)


2013-1: Lack of Adherence to Procurement Procedures (Continued)

       “(a) Basis for contractor selection,

       (b) Justification for lack of competition when competitive bids or offers are not
       obtained, and

       (c) Basis for award cost or price..”

Additionally, 22 CFR 226.43, Competition, states, in part:

       “All procurement transactions shall be conducted in a manner to provide, to the
       maximum extent practical, open and free competition…Awards shall be made to
       the bidder or offeror whose bid or offer is responsive to the solicitation and is
       most advantageous to the recipient, price, quality and other factors considered…”

IRD Procurement Policy Manual, Section 10, Competition Process for Procurements of
$150,000 and Above, states, in part:

       “…10.1 IRD shall utilize competitive procedures to the most practicable extent
       when procuring goods and/or services…”

Additionally, IRD Procurement Policy Manual, Section 10.7, Award, states, in part:

       “10.7.1 After technical evaluation is complete, award will be made to the lowest
       responsible offeror or to the offeror with the most advantageous solution to fulfill
       the needs of IRD, price and other factors considered as may be stated in the
       RFA/RFP…

       10.7.5 Sole Offer – Non-Competitive Award – In cases where only one
       technically acceptable offer is received, IRD will conduct price and/or cost
       analysis and negotiations to get the most advantageous price…

       10.7.9 In the case where only one qualified offer is received , and no adequate
       competition exists, IRD may conduct additional negotiations with the qualifying
       offeror

       10.7.10 All of the above processes and final results will be documented in Final
       Source Selection Memorandum (See Form D), which will depict the elements
       discussed and explain the basis for determination that the price is fair and
       reasonable…”




                                                  32
                 INTERNATIONAL RELIEF AND DEVELOPMENT, INC.

                           Financial Audit of Costs Incurred under
                      Cooperative Agreement No. 306-A-00-08-00509-00

                                   Findings and Responses

                                         (Continued)


2013-1: Lack of Adherence to Procurement Procedures (Continued)

Effect:
Lack of adherence to procurement procedures can result in the acquisition of goods and/or
services that are not competitively priced. In a hostile environment, adherence to procurement
policies and procedures is critical in order to ensure funds expended were reasonable,
allowable and allocable.      Additionally, failure to document the rationale for awarding
subcontracts to other than the highest scoring bidder raises concerns that fraud may have
occurred within the procurement function. Total questioned costs, including associated indirect
costs, are as follows:

                                                        Associated       Total
                                        Questioned       Indirect     Questioned
           Cost Category                    Cost           Cost          Cost
  Road rehabilitation                   $5,836,070       $       -    $5,836,070
  COCB                                   1,507,968         20,880      1,528,848
  Management and administration             11,300          2,144         13,444

    Total questioned costs              $7,355,338        $23,024     $7,378,362

Recommendation:
   (1) We recommend that IRD provide evidence of competitive bidding and proper
       procurement practices to USAID or return $7,378,362 for failure to follow procurement
       procedures.

   (2)   We recommend that IRD implement procedures to ensure a review of procurement
         files is conducted to ensure that its procurement procedures are being followed.




                                              33
                 INTERNATIONAL RELIEF AND DEVELOPMENT, INC.

                           Financial Audit of Costs Incurred under
                      Cooperative Agreement No. 306-A-00-08-00509-00

                                   Findings and Responses

                                         (Continued)


2013-2: Road Construction Incomplete Per Physical Observation

Condition:
According to the IRD Final Roads Rehabilitation Status Report issued in December 2011, Road
#11, Hassan Kel to Ster Village Road, a final inspection of the road was conducted by both IRD
and an outside consulting firm, Tetra Tech, on April 21, 2011, and the road was accepted as
complete effective March 31, 2011. The final status for this road is “Complete Full
Rehabilitation”, including 100% completion of an Aggregate Base Course which would be
equivalent to a final Surface Course. According to the Agreement, the road was to be
constructed to an all-weather gravel standard. The construction activities were to include
raising the existing ground level, preparing the road bed to improve the sub-grade, filling and
compaction, and rehabilitation of existing drainage systems to improve drainage. Based upon a
physical observation of the entire road in June 2013, the road does not appear to have been
completed in accordance with the requirements of the Agreement. The following photographs
are representative of the condition of the entire road.




                                              34
                 INTERNATIONAL RELIEF AND DEVELOPMENT, INC.

                           Financial Audit of Costs Incurred under
                      Cooperative Agreement No. 306-A-00-08-00509-00

                                    Findings and Responses

                                           (Continued)


2013-2: Road Construction Incomplete Per Physical Observation (Continued)




These photographs were taken by employees of HLB Ijaz Tabussum. The photographs depict
the roads as being graded dirt roads and not all-weather gravel roads. An all-weather gravel
road would contain a layer of gravel on its surface. This layer of gravel is clearly missing in the
photographs. Although the photographs were taken approximately 2 years after the completion
of the road, the average useful life of a gravel road is approximately 15 years. Given the
environmental conditions of Afghanistan, the useful life would be less, but it would still be
greater than 2 years. Total costs incurred for Road #11 were $3,233,921.


Cause:
Based upon physical inspection of the road, it appears that IRD misrepresented the
completeness of the road in its Final Roads Rehabilitation Status Report for Road #11.




                                                35
                 INTERNATIONAL RELIEF AND DEVELOPMENT, INC.

                           Financial Audit of Costs Incurred under
                      Cooperative Agreement No. 306-A-00-08-00509-00

                                   Findings and Responses

                                          (Continued)


2013-2: Road Construction Incomplete Per Physical Observation (Continued)

Criteria:
Cooperative Agreement No. 306-AA-00-08-00509-00, Section B.3, Program Activities, states, in
part:

       “…This program will center on rehabilitating an estimated 1,500 to 2,000
       kilometers of roads to an all-weather gravel standard….”

Additionally, Cooperative Agreement No. 306-AA-00-08-00509-00, Section B.3, Program
Activities, Paragraph a., General Program Parameters, states, in part:

       “…(3) Environmental Considerations…

       The main construction activities include raising the existing ground level, roadbed
       preparation to improve the sub-grade, filling and compaction, and rehabilitation of
       existing drainage systems to improve drainage…”


Effect:
Misrepresenting the status of a road as complete to an all-weather gravel standard when
photographs indicate it is a dirt road does not allow IRD to demonstrate to USAID that funds
were used for their intended purposes. Additionally, misrepresentations in the reporting of the
status of roads raises concerns that fraud may have occurred within the road rehabilitation
portion of the program. As we were not provided with the costs for the various stages of the
road rehabilitation to identify the costs for the portion of the road not completed, we have
questioned the entire amount of the road.


Recommendation:
We recommend that IRD either provide evidence to USAID that Road #11 was constructed as
required per the Agreement or to return $3,233,921 to USAID for the incomplete construction of
the road.




                                               36
                  INTERNATIONAL RELIEF AND DEVELOPMENT, INC.

                            Financial Audit of Costs Incurred under
                       Cooperative Agreement No. 306-A-00-08-00509-00

                                       Findings and Responses

                                              (Continued)


2013-3: Inadequately Supported Road Rehabilitation Costs

Condition:
The following observations were made as part of a review of the construction files for a sample
of roads:

                                                                                          Questioned
                                      Observation                                           Cost
  Road #20 – Yahya Khel to Baki Khel to Khayr Kot Road (Blue Koshar JV
  Company):
   Invoice payment application #27 was for the settlement of a claim related to the
    descoping of the project, but was also included in the final progress payment for
    the period of June 25, 2011 through July 25, 2011. No documentation was
    provided to indicate that this payment was not claimed twice. This cost has
    been deemed ineligible.                                                               $   12,590

  Road #27 – Shah Wali Kot to Nesh (Afghan Wardak Construction Company):
   Two cure notices were issued to this subcontractor for deficiencies cited related
    to road construction activity. A Termination for Default dated 12/18/10 was also
    issued. Two months after the Termination for Default was issued, it was
    modified to a Termination for Convenience by the new Chief of Party.
    Additional project costs continued to be incurred. No supporting documentation
    was provided as to why the change in the type of termination notice was made.
    All construction costs incurred after the original Termination for Default that was
    issued on 12/18/10 have been questioned. This cost has been deemed
    ineligible.                                                                            1,969,510

  Total ineligible road rehabilitation costs due to inadequate supporting
   documentation                                                                          $1,982,100


Cause:
The submission of a claim termination settlement was inadvertently included with the standard
invoice processing and approved for payment due to a management oversight. IRD was unable
to explain why the Termination for Default was changed to a Termination for Convenience as it
did not maintain documentation that supported its rationale for these decisions.




                                                   37
                 INTERNATIONAL RELIEF AND DEVELOPMENT, INC.

                           Financial Audit of Costs Incurred under
                      Cooperative Agreement No. 306-A-00-08-00509-00

                                   Findings and Responses

                                          (Continued)


2013-3: Inadequately Supported Road Rehabilitation Costs (Continued)

Criteria:

OMB Circular A-122, Cost Principles for Non-Profit Organizations, Attachment A, General
Principles, Part A, Basic Considerations, states, in part:

       “…2. Factors affecting allowability of costs. To be allowable under an award,
       costs must meet the following general criteria:

       a. Be reasonable for the performance of the award and be allocable thereto
       under these principles;…

       c. Be consistent with policies and procedures that apply uniformly to both
       federally-financed and other activities of the organization;…

       g. Be adequately documented....”

22 CFR 226.53, Retention and access requirement for records, states, in part:

       “…(b) Financial records, supporting documents, statistical records, and all other
       records pertinent to an award shall be retained for a period of three years from
       the date of submission of the final expenditure report or, for awards that are
       renewed quarterly or annually, from the date of the submission of the quarterly or
       annual financial report, as authorized by USAID…”


Effect:
Lack of adequate support for costs incurred does not allow IRD to demonstrate that USAID
funds were used for intended purposes. Additionally, including unpaid construction work with
progress payments that is being proposed in a final termination settlement could result in an
overpayment of costs. Based upon the actual results of our testing, costs in the amount of
$1,982,100 were questioned.


Recommendation:
   (1) We recommend that IRD either provide an explanation including supporting
       documentation to USAID as to how the identified expenses relate to the SPR program
       or return $ 1,982,100 for ineligible road rehabilitation costs.




                                              38
                INTERNATIONAL RELIEF AND DEVELOPMENT, INC.

                          Financial Audit of Costs Incurred under
                     Cooperative Agreement No. 306-A-00-08-00509-00

                                  Findings and Responses

                                        (Continued)


2013-3: Inadequately Supported Road Rehabilitation Costs (Continued)

   (2)   We recommend that IRD provide internal training to its personnel to emphasize the
         importance of record retention, as well as issue guidance to all personnel requiring
         them to adhere to its record retention policies to ensure that all documentation
         supporting costs incurred is properly maintained.




                                             39
                 INTERNATIONAL RELIEF AND DEVELOPMENT, INC.

                            Financial Audit of Costs Incurred under
                       Cooperative Agreement No. 306-A-00-08-00509-00

                                     Findings and Responses

                                            (Continued)


2013-4: Payments Lacking Proper Approval and for Periods Beyond the Period of
Performance

Condition:
Invoices and Payment Application Requests did not consistently contain evidence of
management review and approval prior to payment. Additionally, some invoices were paid for
services rendered after the end of the period of performance. Specifically, the following
observations were noted:

                                                                                       Questioned
                                     Observation                                         Cost
  Road #6 – Azra to Shizard (Azad Construction Company):
   The subcontractor was terminated for convenience on 4/7/11, with all work to be
     completed by 6/15/11. However, a final invoice in the amount of $193,814 was
     submitted as a progress payment for this project for the period 7/15/11 through
     8/14/11 without any approval to extend the project period. As such, these
     construction costs have been deemed ineligible as they were incurred after the
     project completion date of 6/15/11.                                               $ 193,814

  Road #9B – Kolalgu to Gardez (FMCC-THEC-HCG Joint Venture):
   The subcontractor’s Payment Application Request #15 did not contain the
     required approvals from the IRD Contract Manager and the DCOO-Roads
     Manager prior to payment. As such construction costs billed in the amount of
     $269,851 are deemed unsupported due to a lack of proper approvals.                   269,851

  Road #16 – Jaghuri to Malistan (Combat Construction Company):
   A review of Payment Application Request #10 noted that proper approvals were
     not obtained as the Construction Manager signed as the Project Manager,
     Regional Manager and Construction Manager. As such, construction costs
     billed in the amount of $294,047 have been deemed unsupported due to a lack
     of proper approvals.                                                                 294,047

  Road #20 – Yahya Khel to Baki Khel to Khayr Kot Road (Blue Kosher JV
  Company):
   Contract modification #5 extended the final completion date for this contract to
     6/15/11. However, a review of Payment Application request #26 in the amount
     of $73,021 noted that costs were incurred under this contract for the period
     6/25/11 through July 25, 2011 without any approval to extend the project
     period. As such, these construction costs have been deemed ineligible as they
     were incurred after the project completion date of 6/15/11.                           73,021




                                                 40
                  INTERNATIONAL RELIEF AND DEVELOPMENT, INC.

                            Financial Audit of Costs Incurred under
                       Cooperative Agreement No. 306-A-00-08-00509-00

                                      Findings and Responses

                                               (Continued)


2013-4: Payments Lacking Proper Approval and for Periods Beyond the Period of
Performance (Continued)

                                                                                   Questioned
                                    Observation                                      Cost
  Road #27 – Shah Wali Koi to Nesh (Afghan Wardak Construction Company):
   A review of Payment Application Request #6 noted that proper approvals were
     not obtained as the Regional Manager signed as the Project Manager,
     Regional Manager and Construction Manager. As such, construction costs
     billed in the amount of $231,818 have been deemed unsupported due to a lack
     of proper approvals.                                                          $ 231,818

  Total questioned road rehabilitation costs                                       $1,062,551

These questioned costs have been classified as follows:

      Ineligible costs                            $ 266,835
      Unsupported costs                             795,716

        Total questioned costs                    $1,062,551


Cause:
This condition occurred due to IRD management not effectively implementing and monitoring its
subcontractors’ invoice payment approval process. Additionally, management did not effectively
monitor its subcontracts for period of performance which allowed certain payments to be made
to subcontractors for services rendered after the periods of performance.


Criteria:
22 CFR 226.51, Monitoring and program performance, states, in part:

       “(a) Recipients are responsible for managing and monitoring each project,
       program, subaward, function or activity supported by the award…”

Additionally, IRD’s Internal Procedure for Approving Subcontractor Applications for
Payment, states in part:

       “…(4) Once the payment application is uploaded in Primavera Contracts
       Manager (CM), Project Controls will do a preliminary review to make sure the
       documentation is meeting all contract requirements. The payment application is
       also checked to assure it is free of mathematical errors…




                                                   41
                   INTERNATIONAL RELIEF AND DEVELOPMENT, INC.

                             Financial Audit of Costs Incurred under
                        Cooperative Agreement No. 306-A-00-08-00509-00

                                      Findings and Responses

                                            (Continued)


2013-4: Payments Lacking Proper Approval and for Periods Beyond the Period of
Performance (Continued)

         “(6) If the payment application does not meet all Contract requirements, it is
         rejected through CM and a new review cycle for that payment requisition is
         created.

         (7) Once the payment application is cleared by Project Controls, the payment
         application is forwarded to the construction department for the Team Leaders
         and Project Managers to review quantities…

         (9) Payment Application is sent to Contracts for final approval after it is approved
         by the Road Department.

         (10) After approval, the Payment application is returned to Project Controls for
         final processing.

         (11) Project Controls will review to assure the payment application package
         includes all the required documentation before approving it in the submitted
         module…”

Furthermore, the IRD Program Controls Process Chart indicates that once the payment
requisition is approved, the Regional Program Manager is responsible for gathering approval
signatures and returning to Document Controls for further payment processing.


Effect:
Payments not properly reviewed and approved, and costs incurred outside of the period of
performance does not allow IRD to demonstrate that USAID funds were used for intended
purposes. Based upon the actual results of our testing, costs in the amount of $1,062,551 were
questioned.


Recommendation:
   (1) We recommend that IRD either provide an explanation including supporting
       documentation to USAID as to how the identified expenses relate to the SPR program
       or return $266,835 for ineligible costs related to inadequately approved invoices and
       costs incurred beyond the period of performance.

   (2)    We recommend that IRD either provide USAID the missing or insufficient
          documentation or return $795,716 for unsupported costs related to inadequately
          approved invoices and costs incurred beyond the period of performance.



                                                 42
                INTERNATIONAL RELIEF AND DEVELOPMENT, INC.

                         Financial Audit of Costs Incurred under
                    Cooperative Agreement No. 306-A-00-08-00509-00

                                  Findings and Responses

                                        (Continued)


2013-4: Payments Lacking Proper Approval and for Periods Beyond the Period of
Performance (Continued)

  (3)   We recommend that IRD provide internal training to its personnel to emphasize the
        importance of its cash disbursement approval process and require its personnel to
        adhere to its cash disbursement approval process to ensure that all invoices are
        reviewed and approved by authorized individuals prior to payment.

  (4)   We recommend that IRD provide training to its management regarding the timing of
        services rendered in relation to a subcontract’s period of performance and disallowing
        all costs incurred that are beyond the period of performance.




                                             43
                 INTERNATIONAL RELIEF AND DEVELOPMENT, INC.

                           Financial Audit of Costs Incurred under
                      Cooperative Agreement No. 306-A-00-08-00509-00

                                   Findings and Responses

                                         (Continued)


2013-5: Lack of Adequate Cash Disbursement Controls

Condition:
IRD disclosed that during the period of August 2009 through October 2009, a former COCB
Regional Coordinator for the IRD Eastern Region in Afghanistan stole $75,000 in IRD funds that
were intended for the execution of several COCB grants activities. IRD made repeated
attempts to locate the individual with no success. IRD concluded that the individual had
disappeared and there would be no chance of recovering the missing funds. The IRD Finance
Department also determined that an additional $34,084 was transferred to this individual
through a money dealer in October 2009 for other grant activities for which no receipt from the
intended community was sent to IRD. The grants were designated by IRD as Capacity Building
Small Grant (CBSG) – Fixed Obligation Grant (FOG). The IRD Finance Department has also
acknowledged that this individual received employee advances totaling $5,500 during his tenure
as the Southeastern Regional Coordinator. These advances were never cleared by the
employee submitting valid receipts or other documentation to support that the travel did occur.
Questioned costs associated with this theft are as follows:

                                                                            Questioned
                                Description                                   Cost
   COCB::
    CBSG-FOG-09-105 (Goats Distribution in Kharmanai Community)             $ 25,000
    CBSG-FOG-09-107 (Goats Distribution in Mula Fateh Community)              25,000
    CBSG-FOG-09-108 (Goats Distribution in Sikandar Khail
     Community)                                                                25,000
    CBSG-FOG-038 (Construction of water wells in Tor Shara)                     4,924
    CBSG-FOG-09-065 (Tailoring Vocational Training for Balzai Comm)             9,720
    CBSG-FOG-09-070 (Tailoring Vocational Training for Hukum Zai
     Comm)                                                                      9,720
    CBSG-FOG-09-067 (Tailoring Vocational Training for Mando Khel
     Comm)                                                                      9,720

   Total questioned COCB costs                                                109,084

   Management and administration:
    Employee advances without clearance before termination of
     employment                                                                 5,500

   Total questioned management and administration costs                         5,500

     Total questioned costs due to lack of adequate cash disbursement
      controls                                                               $114,584




                                              44
                  INTERNATIONAL RELIEF AND DEVELOPMENT, INC.

                            Financial Audit of Costs Incurred under
                       Cooperative Agreement No. 306-A-00-08-00509-00

                                     Findings and Responses

                                            (Continued)


2013-5: Lack of Adequate Cash Disbursement Controls (Continued)

IRD received an insurance reimbursement related to the theft in the amount of $80,500 as
follows. IRD credited this amount to the project so that a subsequent request for reimbursement
Was reduced by the amount of the insurance reimbursement.

      COCB reimbursement                                            $75,000
      Management and administration reimbursement                     5,500

       Total insurance reimbursement                                $80,500


Cause:
IRD relied on the integrity of its employees to deliver large sums of cash to villages for their use,
which created opportunities for theft. The employees were traveling to regions that were not
deemed safe for expatriate staff travel. At the time, there were no banks, paying agents, or
other viable ways to safely transport the funds to the community leaders. As such, controls
such as dual custody of cash, were lacking once the cash was given to the employee to deliver.


Criteria:
OMB Circular A-110, Uniform Administrative Requirements for Grants and Agreements with
Institutions of Higher Education, Hospitals and Other Non-Profit Organizations, Subpart C, Post-
Award Requirements, Financial and Program Management, Paragraph ___.21 states, in part:

       “…(b) Recipients financial management systems shall provide for the following:…

       (3) Effective control over and accountability for all funds…”

IRD Operations Manual, Volume 3, Field Offices Finance and Accounting, Chapter 2, Paragraph
2.5.1, Financial Responsibilities of Field Offices, states, in part:

       “A. Corporate Policy on Business Conduct and Code of Conduct

       1. It is IRD’s policy that all staff, consultants, sub-contractors and sub-grantees
       conduct activities morally, ethically, and in the spirit of public accountability and
       transparency…

       a. No funds or assets will be used for any unlawful or improper purpose…

       h.  Payments/cash transactions will be made only into and from IRD
       Headquarters-approved back accounts…



                                                 45
                INTERNATIONAL RELIEF AND DEVELOPMENT, INC.

                          Financial Audit of Costs Incurred under
                     Cooperative Agreement No. 306-A-00-08-00509-00

                                  Findings and Responses

                                         (Continued)


2013-5: Lack of Adequate Cash Disbursement Controls (Continued)

      “n. Country Directors or Chiefs of Party are responsible for disseminating this
      policy to all employees in their respective offices and for instituting and
      maintaining a program to ensure that employees understand IRD’s standards of
      ethical conduct.

      o. IRD requires its employees to abide by the foregoing standards of ethical
      behavior…

      B. Internal Control…

      5. Close supervision by the Finance Manager and oversight by the Country
      Director or Chief of Party are vital to ensure that control systems are working and
      that weaknesses will be identified and corrected.”

Additionally, IRD Operations Manual, Volume 3, Field Office Finance and Accounting, Chapter
3, Cash Management, Section 3.2., Policy, states, in part:

      “B…adequate controls must be maintained to minimize risk of funds being lost or
      stolen…”

      D. IRD will required that field offices minimize loss of cash...The most effective
      way to minimize loss of cash…is to minimize the number of cash
      transactions…Checks or bank transfers should be used in place of cash
      whenever possible. In countries without strong banking establishments or
      traditions, Field Offices should consult with the CFO concerning alternative
      payments systems to be taken with adequate internal accounting controls…”

Furthermore, IRD Operations Manual, Volume 3, Field Office Finance and Accounting, Chapter
6, Paragraph 6.5.4, Employee Travel Expense Reimbursement, states, in part:

      “G. IRD employees, including field offices will follow the following procedures:…

      5. Expense Advance:…

      b. Before receiving the next payroll check, the employee will liquidate the
      advance by accounting for the actual expenses incurred, completing a travel and
      entertainment form attaching originals of supporting documentation…




                                              46
                  INTERNATIONAL RELIEF AND DEVELOPMENT, INC.

                            Financial Audit of Costs Incurred under
                       Cooperative Agreement No. 306-A-00-08-00509-00

                                     Findings and Responses

                                           (Continued)


2013-5: Lack of Adequate Cash Disbursement Controls (Continued)

         “c. Monthly, the Manager Payroll Accounting, will reconcile advances to the
         Advance Ledger and will follow up with the supervisor/employee on advances
         which have not been liquidated, in a timely fashion…”


Effect:
Failure to adequately safeguard cash and weak controls over the handling of cash resulted in
the theft of Federal funds. The total theft was $114,584, exclusive of associated indirect costs.
IRD received an insurance reimbursement of $80,500, for which IRD reduced a subsequent
claim for reimbursement. This resulted in a net loss of $34,084 included in the COCB cost
category, exclusive of associated indirect costs. Indirect costs were originally claimed on the full
amount of the theft. The associated indirect costs of $7,117 are added to the amount of the
theft not recovered by insurance. This resulted in total ineligible costs of $41,201.


Recommendation:
   (1) We recommend that IRD either provide evidence that the amount of loss and
       associated indirect costs were deducted from claims, or return $41,201 for theft of
       federal funds.

   (2)    We recommend that IRD improve its internal controls to reduce the opportunity of theft
          of federal funds.




                                                47
                  INTERNATIONAL RELIEF AND DEVELOPMENT, INC.

                            Financial Audit of Costs Incurred under
                       Cooperative Agreement No. 306-A-00-08-00509-00

                                     Findings and Responses

                                            (Continued)


2013-6: Non-SPR Expenses Charged to the Agreement

Condition:
In addition to the SPR program, which is funded by the Agreement, IRD operates other
programs that are funded by other resources. IRD incorrectly charged various expenses related
to other programs including Afghanistan Vouchers for Increased Production in Agriculture
(AVIPA), Human Resource and Logistical Support II (HRLS II) and the Kabul Electric Service
Improvement Program (KESIP) to the SPR program as follows. These non-SPR expenses
were claimed for reimbursement as management and administration costs under the
Agreement.

                                    Number of
               Expense               Errors    AVIPA      HRLS II     KESIP       Total
    Travel – per diem and lodging       6     $123,796    $22,275     $4,879    $150,950
    Expatriate house rent               1       17,200           -         -      17,200
    Utilities                           1        6,800           -         -       6,800
    Communications                      4        3,137           -         -       3,137
    Meetings/conferences                2            -        289          -         289
    Consultants                         8       19,890           -         -      19,890

      Total ineligible expenses        22      $170,823    $22,564    $4,879    $198,266

Subsequent to the audit period, IRD prepared a journal entry reclassifying the costs to the
correct program.


Cause:
The consultants cost of $19,890 was inadvertently charged in error to the SPR program due to
administrative oversight. The remaining $150,933 in incorrect consultants charges, plus the
other costs identified in the condition above, was caused by a change in accounting systems,
whereby certain posting of program expenses were incorrectly charged to the SPR program. In
contract year 2009, IRD Headquarters (HQ) migrated to its new general ledger system known
as Costpoint. A QuickBooks accounting system was used in the Afghanistan field office to
accumulate transactions that were reported to IRD HQ for posting to Costpoint. Prior to the
migration to Costpoint, the field office would charge the project/expense and IRD HQ would
ensure that the correct cost center was charged at the HQ level in the old G/L system. This
process changed with the transition to the new Costpoint G/L system. The field office should
have recorded costs related to other projects to a clearing account and IRD HQ would
subsequently clear these transactions and post to the correct cost centers. Since the field office
did not use the clearing account, at the time these transactions were passed to the HQ
Costpoint G/L, they were incorrectly charged to the SPR project code. IRD has since converted
its Afghanistan field projects to the CostPoint general ledger system. As such, IRD is no longer
using QuickBooks.



                                                48
                 INTERNATIONAL RELIEF AND DEVELOPMENT, INC.

                           Financial Audit of Costs Incurred under
                      Cooperative Agreement No. 306-A-00-08-00509-00

                                    Findings and Responses

                                           (Continued)


2013-6: Non-SPR Expenses Charged to the Agreement (Continued)

Criteria:
OMB Circular A-122, Attachment A, Paragraph A, Basic Considerations, Subparagraph 4,
Allocable costs, states, in part:

       “a. A cost is allocable to a particular cost objective, such as a grant, contract,
       project, service, or other activity, in accordance with the relative benefits received.
       A cost is allocable to a Federal award if it is treated consistently with other costs
       incurred for the same purpose in like circumstances and if it:

       (1) Is incurred specifically for the award…”


Effect:
Of the 76 transactions sampled, 22 transactions (28.95%), were related to programs other than
the SPR program. IRD’s inability to properly connect expenses to the correct award increases
concerns about its cost allocation procedures and its ability to operate Federal awards. As
these transactions were identified on a sample basis, there is a potential that other non-SPR
expenses were also incorrectly charged to the Agreement. When the associated indirect costs
are applied, total ineligible management and administration costs are as follows:

    Non-SPR expenses charged to Agreement                              $198,266
    Associated indirect costs                                            41,696

      Total ineligible management and administration costs             $239,962


Recommendation:
We recommend that IRD provide evidence to USAID supporting that an entry was made to
reclassify the costs to the proper program and that subsequent requests for reimbursement
were reduced, or return $239,962 for ineligible expenses.




                                                49
                  INTERNATIONAL RELIEF AND DEVELOPMENT, INC.

                            Financial Audit of Costs Incurred under
                       Cooperative Agreement No. 306-A-00-08-00509-00

                                    Findings and Responses

                                            (Continued)


2013-7: Indirect Costs Charged as Direct Costs

Condition:
The following expenses should have been recorded as indirect costs. However they were
charged as SPR direct costs, resulting in costs being improperly classified to the Agreement:

                                     Number
                Expense              of Errors     Total
    Travel – transportation              3        $ 1,060
    Travel – per diem and lodging        3         33,072
    Communications                       6          2,585
    Meetings/conferences                 1            722

      Total ineligible expenses        13         $37,439

Subsequent to the audit period, IRD prepared a journal entry reclassifying the costs to the
correct cost category.


Cause:
Due to a change in accounting systems, certain posting of indirect expenses were incorrectly
charged as direct expenses to the SPR program. In contract year 2009, IRD HQ migrated to its
new general ledger system known as Costpoint. A QuickBooks accounting system was used in
the Afghanistan field office to accumulate transactions that were reported to IRD HQ for posting
to Costpoint.     Prior to the migration to Costpoint, the field office would charge the
project/expense and IRD HQ would ensure that the correct cost center was charged at the HQ
level in the old G/L system. This process changed with the transition to the new Costpoint G/L
system. The field office should have recorded costs related to other projects to a clearing
account and IRD HQ would subsequently clear these transactions and post to the correct cost
centers. Since the field office did not use the clearing account, at the time these transactions
were passed to the HQ Costpoint G/L, they were incorrectly charged to the SPR project code
instead of as an indirect cost. IRD has since converted its Afghanistan field projects to the
CostPoint general ledger system. As such, IRD is no longer using QuickBooks.


Criteria:
OMB Circular A-122, Attachment A, General Principles, Paragraph C, Indirect Costs, states, in
part:

       “…1. Indirect costs are those that have been incurred for common or joint
       objectives and cannot be readily identified with a particular final cost objective…”




                                                 50
                 INTERNATIONAL RELIEF AND DEVELOPMENT, INC.

                           Financial Audit of Costs Incurred under
                      Cooperative Agreement No. 306-A-00-08-00509-00

                                   Findings and Responses

                                             (Continued)


2013-7: Indirect Costs Charged as Direct Costs (Continued)

Additionally, OMB Circular A-122, Attachment A, General Principles, Paragraph B, Direct Costs,
states, in part:

       “1…a cost may not be assigned to an award as a direct cost if any other cost
       incurred for the same purpose, in like circumstance, has been allocated to an
       award as an indirect cost…”


Effect:
Costs charged as direct costs that should have been charged to the Agreement as indirect costs
caused an overstatement of the SPR direct expenses. IRD’s inability to properly identify direct
and indirect expenses increases concerns about its cost allocation process and its ability to
operate Federal awards. As these transactions were identified on a sample basis, there is a
potential that other indirect expenses may also have been charged as direct expenses. When
the associated indirect costs are applied, total ineligible management and administration costs
are as follows:

    Indirect costs charged as direct costs                          $37,439
    Associated indirect costs                                         7,817

      Total ineligible management and administration costs          $45,256


Recommendation:
We recommend that IRD provide evidence to USAID supporting that an entry was made to
reclassify the costs to the proper cost category and that subsequent requests for reimbursement
were reduced, or return $45,256 for ineligible expenses.




                                                 51
                 INTERNATIONAL RELIEF AND DEVELOPMENT, INC.

                           Financial Audit of Costs Incurred under
                      Cooperative Agreement No. 306-A-00-08-00509-00

                                   Findings and Responses

                                          (Continued)


2013-8: Missing or Insufficient Source Documentation to Support Expenses

Condition:
IRD could not provide records, or provided insufficient records, to support transactions selected
for testing in the road rehabilitation and management and administration cost categories,
resulting in the following questioned costs:

                                                                    Number
                            Observation                             of Errors    Amount
  Road rehabilitation:
   No supporting documentation provided for Third Country
     National salaries and wages                                         2      $ 12,276

  Total questioned road rehabilitation costs                             2        12,276

  Management and administration:
   No supporting documentation provided for consultant costs             3        15,750
   No supporting documentation provided for base used for
     bonus allocated to SPR Program                                      1        57,598
   Employee agreement was not approved by Chief
     Administrative Officer thus rates of pay not approved               6        16,428
   Timesheets were not approved by supervisor thus hours
     worked were not approved                                            5        30,685

  Total questioned management and administration costs                 15        120,461

  Total unsupported or insufficiently supported transactions           17       $132,737


Cause:
IRD did not adhere to record retention requirements as evidenced by no support provided for
Third County National salaries and wages, consultant costs and missing Rest and Relaxation
Request Approval Forms. IRD did not consistently review and approve timesheets and
employee agreements due to a lack of management oversight. Additionally, IRD does not have
a bonus policy that provides for a consistent methodology for calculating a bonus.




                                               52
                 INTERNATIONAL RELIEF AND DEVELOPMENT, INC.

                           Financial Audit of Costs Incurred under
                      Cooperative Agreement No. 306-A-00-08-00509-00

                                   Findings and Responses

                                          (Continued)


2013-8: Missing or Insufficient Source Documentation to Support Expenses (Continued)

Criteria:
For those transactions for which no supporting documentation was provided, 22 CFR
226.53, Retention and access requirement for records, states, in part:

       “…(b) Financial records, supporting documents, statistical records, and all other
       records pertinent to an award shall be retained for a period of three years from
       the date of submission of the final expenditure report or, for awards that are
       renewed quarterly or annually, from the date of the submission of the quarterly or
       annual financial report, as authorized by USAID…”

Additionally, the IRD Operations Manual – Finance and Accounting, Volume 2, Chapter 6,
Paragraph 6.5.1, Accounts Payable, states, in part:

       “A. The Manager, General Accounting, or designate accountant will prepare a
       payment request. The request will be supported by hard copies of accounts
       payable documentation including: supplier invoices, packing slip, purchase order,
       requisition, receiving report, and authorization of acceptance of goods and
       supplies…”

For those transactions for which timesheets were not approved, the IRD Operations Manual –
Finance and Accounting, Volume 2, Chapter 4, Paragraph 4.5.2, Timekeeping and Labor
Distribution, states, in part:

       “…F. Each employee will prepare his/her time sheet on the 15th and the end of
       the month…

       c. Submit the completed timekeeping record to the supervisor/manager for
       approval…”

OMB Circular A-122, Attachment B, Paragraph 8, Compensation for personal service, states, in
part:

       “…m. Support of salaries and wages.

       (1) Charges to awards for salaries and wages, whether treated as direct costs or
       indirect costs, will be based on documented payrolls approved by a responsible
       official(s) of the organization. The distribution of salaries and wages to awards
       must be supported by personnel activity reports…




                                              53
                  INTERNATIONAL RELIEF AND DEVELOPMENT, INC.

                            Financial Audit of Costs Incurred under
                       Cooperative Agreement No. 306-A-00-08-00509-00

                                   Findings and Responses

                                         (Continued)


2013-8: Missing or Insufficient Source Documentation to Support Expenses (Continued)

         “(2) Reports reflecting the distribution of activity of each employee must be
         maintained for all staff members…”


Effect:
Failure to maintain all records and obtain required approvals as required by the terms of the
Agreement and subcontracts can result in IRD’s inability to demonstrate that projects were
completed and USAID funds were used for their intended purpose. Total questioned costs are
as follows:

                                                         Associated       Total
                                          Questioned       Indirect    Questioned
           Cost Category                     Cost            Cost         Cost
  Road rehabilitation                      $ 12,276       $ 7,991       $ 20,267
  Management and administration             120,461         45,956       166,417

    Total questioned costs                 $132,737       $53,947       $186,684


Recommendation:
   (1) We recommend that IRD either provide the missing documentation to USAID or return
       $186,684 for missing or insufficient source documentation to support expenses.

   (2)    We recommend that IRD provide internal training to its personnel to emphasize the
          importance of record retention, as well as issue guidance to all personnel requiring
          them to adhere to its record retention policies to ensure that all documentation
          supporting costs incurred is properly maintained.

   (3)    We recommend that IRD document its bonus policy and establish procedures that
          bonuses are calculated and paid in accordance with the policy.




                                              54
                 INTERNATIONAL RELIEF AND DEVELOPMENT, INC.

                           Financial Audit of Costs Incurred under
                      Cooperative Agreement No. 306-A-00-08-00509-00

                                    Findings and Responses

                                          (Continued)


2013-9: Failure to Maintain Adequate Records

Condition:
IRD did not maintain required documentation for COCB grants and road rehabilitation projects.
In addition, modifications for the road rehabilitation projects were either not signed in a timely
manner or not signed by the subcontractor and/or IRD responsible personnel. Various
exceptions were noted as follows:

COCB Contracts

   •   Blue Berry Corporation – No documentation was retained for monthly progress reports
       as required by the terms of the contract. Additionally, pre-award conference minutes
       were not retained in the contract file.

   •   Wilbur Smith Associates – Pre-award conference minutes were not retained in the
       contract file.

   •   Combat Construction Company – No documentation was retained for monthly progress
       reports as required by the terms of the contract. Additionally, pre-award conference
       minutes were not retained in the contract file.

   •   Social Development & Legal Rights – No documentation was retained for the mid-term
       progress report as required by the terms of the contract.

Road Rehabilitation Projects

   •   Road #5 – Shinwar to Dur Baba (Azad Construction Company):
        o A review of contract modifications for this road noted that contract modification #1
           dated November 20, 2008, was not timely signed until January 15, 2009; contract
           modification #2 was not signed by the subcontractor; contract modification #5 not
           signed by either the subcontractor or IRD.
        o Pre-award conference minutes not retained in contract file.

   •   Road #6 – Azra to Shizard (Azad Construction Company):
        o A review of contract modifications for this road noted that contract modification #1
           dated November 20, 2008 was not signed until January 15, 2009, contract
           modification #2 was not signed by the subcontractor, and contract modification #4
           was not signed by either the subcontractor or IRD.
        o 4 out of 6 monthly progress reports, required per terms of contract, were not
           maintained in the contract file. As such, it cannot be determined if such progress
           reports were completed.
        o Pre-award conference minutes not retained in contract file.


                                               55
                INTERNATIONAL RELIEF AND DEVELOPMENT, INC.

                          Financial Audit of Costs Incurred under
                     Cooperative Agreement No. 306-A-00-08-00509-00

                                  Findings and Responses

                                         (Continued)


2013-9: Failure to Maintain Adequate Records (Continued)

   •   Road #9B – Kolagu to Gardez (FMCC-THEC-HCG Joint Venture):
        o A total of 5 monthly progress reports, required per terms of contract, were not
           maintained in the contract file. As such, it cannot be determined if such progress
           reports were completed.
        o No minutes for the IRD construction team evaluations were retained in the contract
           file.

   •   Road #16 – Jaghuri to Malistan (Combat Construction Company):
        o Contract modification #2, dated December 1, 2009, was not signed until July 6,
           2010.

   •   Road #18 – Mest to Yahya Khel to Ghundekay Road (Development Organization for the
       Revival of Afghanistan):
        o Contract modification #1, dated November 20, 2008, was not signed until February
            7, 2009.

   •   Road #20 – Yahya Khel to Baki Khel to Khayr Kot Road (Blue Koshar JV Company):
        o Contract modification #2 was not signed by the subcontractor.
        o Contract modification #4, dated March 9, 2011, was not signed until May 1, 2011.

   •   Road #30 – Bahka to Manuf (Ashnapal Construction Company):
        o Pre-award conference minutes were not retained in contract file.
        o 1 monthly progress report was not maintained in contract file. As such, it cannot
           be determined if such progress report was completed.
        o Contract modification #3 was not signed by the subcontractor.

   •   Road #34 – Garmser to Lashkar Gah Road (Development Organization for the Revival
       of Afghanistan DORA):
         o Contract modification #5 was not signed by either IRD or the subcontractor.

   •   Road #36 – Tirin Kot Junction to Khas Urzgan (Afghan Omid Construction Company):
        o Contract modification #2 was not signed by IRD.
        o Contract modification #3 was not signed by the subcontractor.
        o Monthly progress reports for the months of June, July, August and September
           2009, required per terms of contract, were not maintained in contract file. As such,
           it cannot be determined if such progress reports were completed.
        o Pre-award conference minutes were not retained in the contract file.

   •   Road #37 – Chora to Gizab (International Construction Management Company):
        o Pre-award conference minutes were not retained in the contract file.


                                              56
                 INTERNATIONAL RELIEF AND DEVELOPMENT, INC.

                           Financial Audit of Costs Incurred under
                      Cooperative Agreement No. 306-A-00-08-00509-00

                                   Findings and Responses

                                          (Continued)


2013-9: Failure to Maintain Adequate Records (Continued)

   •   Road #38 – Khas Uruzgan to Malistan (Afghan Wardak Construction Company):
         o Pre-award conference minutes were not retained in the contract file.

   •   Road #39 – Day Kundi to Tamazan Pass (National General Construction Company):
        o Pre-award conference minutes were not retained in the contract file.

   •   Road #40 – Kajran to Day Malek (National General Construction Company):
        o Pre-award conference minutes were not retained in the contract file.


Cause:
This condition occurred due to management not effectively monitoring subcontractor records to
ensure that all required reports and documents are maintained in the file. Additionally, IRD
management stated that not all contract modifications need to be signed by the subcontractors.
However, there was no documentation provided as to why certain modifications are not required
to be signed by the subcontractors. For those contract modifications that were not signed by
IRD management, it was deemed to be an oversight.


Criteria:
22 CFR 226.53, Retention and access requirement for records, states, in part:

       “…(b) Financial records, supporting documents, statistical records, and all other
       records pertinent to an award shall be retained for a period of three years from
       the date of submission of the final expenditure report or, for awards that are
       renewed quarterly or annually, from the date of the submission of the quarterly or
       annual financial report, as authorized by USAID…”

Additionally, Cooperative Agreement No. 306-A-00-08-00509-00, Paragraph B.3,
Program Activities, states, in part:

       “…The recipient shall be responsible for planning , managing and executing the
       road rehabilitation activities, including technical oversight of the road
       rehabilitation work, quality control, quality assurance and measurement of
       completed work…

       The recipient will be responsible for the following…




                                               57
                 INTERNATIONAL RELIEF AND DEVELOPMENT, INC.

                           Financial Audit of Costs Incurred under
                      Cooperative Agreement No. 306-A-00-08-00509-00

                                    Findings and Responses

                                          (Continued)


2013-9: Failure to Maintain Adequate Records (Continued)

       7. Obtaining monthly financial and construction status reports from the sub-
       recipients and subcontractors for each road project. Further, the recipient shall
       furnish these monthly reports to USAID on a quarterly basis..”

Furthermore, IRD’s Subcontract Agreements, Article 6.11, Deliverables, states in part:

       “The following items shall be delivered under this subcontract:…

                Description          Quantity           Delivery Date               Deliver To
       Pre-Award Conference…        1…           Upon award…                    Project Manager…
       Monthly Progress Report      1            Before or on the last day of   Project Manager
       and photographs (submitted                the calendar month             and IRD’s Accounts
       with invoices)                                                           Payable


Effect:
Failure to maintain all records and obtain required approvals as required by the terms of the
Agreement and subcontracts creates gaps in understanding IRD’s progress/lack of progress
with award activities.


Recommendation:
We recommend that IRD establish more effective policies and procedures to ensure program
documentation is properly maintained and adequate authorizations are obtained and in a timely
manner.




                                                58
                INTERNATIONAL RELIEF AND DEVELOPMENT, INC.

                          Financial Audit of Costs Incurred under
                     Cooperative Agreement No. 306-A-00-08-00509-00

                                   Findings and Responses

                                         (Continued)


2013-10: Entertainment Expenses Were Charged to the Agreement

Condition:
IRD included entertainment expenses for farewell parties, special holiday celebrations, and
other parties, as part of the management and administration cost category.

                                                              Number      Questioned
                          Observation                         of Errors     Cost
     Decorations, food and refreshments for Christmas
       party                                                       8        $2,687
     Live music, tent rentals and food for farewell parties
       and social events evenings                                  8           1,323

       Total ineligible entertainment expenses                    16        $4,010


Cause:
IRD considered the farewell parties, holiday celebrations and other parties to be allowable
employee morale costs as per applicable cost principles (2 CFR 230, Appendix B, Section 13a –
Employee Morale, Health and Welfare Costs), and not entertainment expenses.


Criteria:
OMB Circular A-122, Attachment B, Paragraph 14, Entertainment costs, states:

       “Costs of entertainment, including amusement, diversion, and social activities
       and any costs directly associated with such costs (such as tickets to shows or
       sports events, meals, lodging, rentals, transportation, and gratuities) are
       unallowable.”


Effect:
IRD incurred $4,010 of ineligible entertainment costs which are unallowable costs per OMB
Circular A-122. Reporting unallowable entertainment costs as employee morale costs raises
concerns about the propriety of IRD’s billing and specific concerns about the extent of such
charges. Indirect costs associated with the ineligible entertainment costs were $875. Total
unallowable costs charged to the program were $4,885.




                                                 59
                INTERNATIONAL RELIEF AND DEVELOPMENT, INC.

                          Financial Audit of Costs Incurred under
                     Cooperative Agreement No. 306-A-00-08-00509-00

                                  Findings and Responses

                                         (Continued)


2013-10: Entertainment Expenses Were Charged to the Agreement (Continued)

Recommendation:
   (1) We recommend that IRD either provide support and an explanation to USAID as to
       why the entertainment costs should be allowable or return $4,885 in ineligible
       entertainment costs.

   (2)   We recommend that IRD provide training to its employees regarding the cost principles
         outlined in OMB Circular A-122 and develop more effective policies and procedures to
         prevent unallowable entertainment costs from being charged as allowable costs.




                                             60
                 INTERNATIONAL RELIEF AND DEVELOPMENT, INC.

                            Financial Audit of Costs Incurred under
                       Cooperative Agreement No. 306-A-00-08-00509-00

                                   Findings and Responses

                                         (Continued)


2013-11: Lack of Support for Disposed, Lost and Damaged Assets

Condition:
Of the 59 disposed assets tested, IRD provided no evidence that 12 of those assets were in fact
disposed. The unsupported disposed assets were as follows:

                                         Date Placed
    Asset No.         Description         in Service       Cost
     010780      Conference Table           1/29/08       $ 500
     011047      Desktop                    3/18/10         710
     011630      Chair                      1/29/08          30
     012556      Printer                    6/30/08         246
     012862      Microwave                   8/6/08         200
     012964      Bed                        2/25/08         135
     013066      File Cabinet               8/17/08         110
     013475      Network Cabinet           10/10/08         120
     014128      Computer Monitor           1/20/09         340
     014230      Digital Camera              2/8/09         150
     016725      Dining Chair                5/3/10          15
    CAR054       3x4 Carpet                  5/3/09         120

     Total unsupported disposals                         $2,676

Additionally, of the 59 assets tested, 3 items were categorized as lost and 5 items were
categorized as damaged. However, no documentation was provided to support whether the lost
or damaged assets were reported to USAID. The lost and damaged assets were as follows:

                                         Date Placed
    Asset No.       Description           in Service       Cost
   Lost assets:
     010663     Thuraya                     1/6/09        $ 620
     013579     Camera                     11/15/08         290
     014969     Mobile                      4/1/09          220

   Total lost assets                                       1,130




                                              61
                 INTERNATIONAL RELIEF AND DEVELOPMENT, INC.

                          Financial Audit of Costs Incurred under
                     Cooperative Agreement No. 306-A-00-08-00509-00

                                   Findings and Responses

                                         (Continued)


2013-11: Lack of Support for Disposed, Lost and Damaged Assets (Continued)

                                         Date Placed
    Asset No.      Description            in Service      Cost
   Damaged assets:
     011733   Cabinet                        6/18/08     $ 100
     011836   Printer                        1/31/08       110
     012453   Chair                          4/20/08        43
     014356   Switch                          7/8/08        35
     014866   Printer                        7/17/08       335

   Total damaged assets                                     623

   Total lost and damaged assets                         $1,753

The total cost of disposed, lost and/or damaged assets were $4,429.


Cause:
IRD did not maintain evidence of disposal because USAID did not require the return of the
equipment on the approved disposition plan. Equipment that was not to be used for another
agreement or donated to another agency was disposed of and the method of disposal was not
maintained or documented. Additionally, IRD did not have an adequate system in place to
safeguard assets from loss or damage.


Criteria:
22 CFR 226.34, Equipment, states, in part:

       “…(f) The recipient’s property management standards for equipment acquired
       with Federal Funds and federally-owned equipment shall include all of the
       following:…

       (4) A control system shall be in effect to insure adequate safeguards to prevent
       loss, damage, or theft of the equipment. Any loss, damage, or theft of equipment
       shall be investigated and fully documented; if the equipment was owned by the
       Federal Government, the recipient shall promptly notify the Federal awarding
       agency with whose funds the equipment was purchased…




                                               62
                   INTERNATIONAL RELIEF AND DEVELOPMENT, INC.

                             Financial Audit of Costs Incurred under
                        Cooperative Agreement No. 306-A-00-08-00509-00

                                     Findings and Responses

                                            (Continued)


2013-11: Lack of Support for Disposed, Lost and Damaged Assets (Continued)

         “(h) USAID reserves the right to transfer the title to the Federal Government or to
         a third party named by the Federal Government when such third party is
         otherwise eligible under existing statutes. Such transfer shall be subject to the
         following standards:

         (1) The equipment shall be appropriately identified in the award or otherwise
         made known to the recipient in writing.

         (2) USAID shall issue disposition instructions within 120 calendar days after
         receipt of a final inventory. The final inventory shall list all equipment acquired
         with award funds and federally-owned equipment. If USAID fails to issue
         disposition instructions within the 120 calendar day period, the recipient shall
         apply the standards of this section, as appropriate.

         (3) When USAID exercises its right to take title, the equipment shall be subject
         to the provisions for federally-owned equipment.”


Effect:
Without evidence of asset disposals being maintained, equipment could be sold and the
proceeds used for something other than the objective of the Agreement without USAID’s
knowledge. Lost and/or damaged assets resulted in government property that cannot be
utilized for the benefit of the program’s operation. The total cost of the disposed, lost, and/or
damaged equipment is $4,429. A fair market value analysis was attempted through online
queries of used equipment. However, due to the limited property descriptions provided by IRD,
an accurate fair market value could not be determined. As such, the original cost of the assets
has been questioned.


Recommendation:
   (1) We recommend that IRD either provide evidence to USAID regarding its compliance
       with the Agreement and 22 CFR 226.34, or return $4,429 in disposed, lost or damaged
       assets.

   (2)    We recommend that IRD establish procedures to ensure that all disposed equipment
          be properly tracked and reported as required by the Agreement and 22 CFR 226.34.

   (3)    We recommend that IRD establish controls to ensure adequate safeguards are in
          place to prevent loss, damage or theft of assets.




                                                 63
                 INTERNATIONAL RELIEF AND DEVELOPMENT, INC.

                           Financial Audit of Costs Incurred under
                      Cooperative Agreement No. 306-A-00-08-00509-00

                                    Findings and Responses

                                           (Continued)


2013-12: Need to Consistently Review the Excluded Parties List

Condition:
For transactions tested prior to October 2010, no documentation was provided to support that
IRD conducted reviews of the Excluded Parties List System (EPLS) prior to entering into vendor
contracts to verify that the vendors were not suspended, debarred or otherwise excluded from
receiving Federal funds. For the Rent expenses tested, IRD did not perform an excluded
parties check on four vendors, and for the office utilities tested, IRD did not perform an excluded
parties check on one of the vendors. We reviewed the excluded parties list for these vendors
and determined that they were not on the list. Therefore, we did not question any costs.


Cause:
This condition occurred due to an oversight by management. Additionally, IRD personnel
explained that they became aware of the EPLS requirement in October 2010 and immediately
ran searches on vendors.


Criteria:
22 CFR 226.13, Debarment and suspension, states:

       “USAID and recipients shall comply with the nonprocurement debarment and
       suspension common rule implementing E.O.s 12549 and 12689, Debarment and
       Suspension,” 22 CFR part 208. This common rule restricts subawards and
       contracts with certain parties that are debarred, suspended or otherwise
       excluded from or ineligible for participation in Federal assistance programs or
       activities.”

Additionally, Cooperative Agreement No. 306-A-00-08-00509-00, Attachment C, Section C.10,
Debarment, Suspension, and Other Responsibility Matters Responsibility, states in part:

       “…b. The recipient agrees that, unless authorized by the Agreement Officer, it
       will not knowingly enter into any subagreements or contracts under this grant
       with a person or entity that is included on the Excluded Parties List System
       (http://epls.arnet.gov). The recipient further agrees to include the following
       provision in any subagreements or contracts entered into under this award:

       DEBARMENT, SUSPENSION, INELIGIBILITY, AND VOLUNTARY EXCLUSION
       (DECEMBER 2003)




                                                64
                 INTERNATIONAL RELIEF AND DEVELOPMENT, INC.

                           Financial Audit of Costs Incurred under
                      Cooperative Agreement No. 306-A-00-08-00509-00

                                    Findings and Responses

                                          (Continued)


2013-12: Need to Consistently Review the Excluded Parties List (Continued)

       “The recipient/contractor certifies that neither it nor its principals is presently
       excluded or disqualified from participation in this transaction by any Federal
       department or agency…”

This criteria requires that IRD not do business with excluded parties. As such, IRD must review
the excluded parties list prior to entering into contracts and document evidence of this review in
order to demonstrate it has complied with the criteria.


Effect:
By not checking the EPLS for vendors excluded from Federal procurement and nonprocurement
programs, Federal funds might be paid to a vendor that is debarred, suspended, or otherwise
prohibited from receiving Federal funds. None of the vendors were on the excluded parties list
and therefore no costs were questioned in this finding.


Recommendation:
We recommend that IRD establish procedures to ensure that it reviews the System for Award
Management (SAM) prior to entering into a contract for goods and/or services, and then
periodically throughout the period of performance, to ensure the vendor is not an excluded party.
Evidence of these reviews should be documented in IRD’s procurement files.




                                               65
                                                                                 APPENDIX A
                 INTERNATIONAL RELIEF AND DEVELOPMENT, INC.

                           Financial Audit of Costs Incurred under
                      Cooperative Agreement No. 306-A-00-08-00509-00

                                 IRD Responses to Findings

                For the Period November 30, 2007 through December 31, 2012


Included on the following pages is IRD’s response received to the findings identified in this
report. In addition to the narrative response, IRD provided documentation that, in its opinion,
supports its position on various findings. Due to the voluminous and proprietary nature of this
documentation, it has not been included within this report. The documentation has been
provided to SIGAR under separate cover.




                                              66
     APPENDIX A




67
     APPENDIX A




68
     APPENDIX A




69
     APPENDIX A




70
     APPENDIX A




71
     APPENDIX A




72
     APPENDIX A




73
     APPENDIX A




74
     APPENDIX A




75
     APPENDIX A




76
     APPENDIX A




77
     APPENDIX A




78
     APPENDIX A




79
     APPENDIX A




80
     APPENDIX A




81
     APPENDIX A




82
     APPENDIX A




83
     APPENDIX A




84
     APPENDIX A




85
     APPENDIX A




86
     APPENDIX A




87
                                                                                      APPENDIX B
                  INTERNATIONAL RELIEF AND DEVELOPMENT, INC.

                            Financial Audit of Costs Incurred under
                       Cooperative Agreement No. 306-A-00-08-00509-00

                                    IRD Responses to Findings

                 For the Period November 30, 2007 through December 31, 2012


IRD provided general management responses to the audit and audit report, as well as specific
disagreements to 10 out of the 12 findings presented in this report. We have reviewed its
management responses and offer the following rebuttals to the general management responses,
as well as each of the findings to which it disagreed.


General Management Responses and Auditors’ Rebuttal

General Management Response #1

IRD does not believe that the matters related to Findings 2013-10 and 2013-11 should be
classified as significant deficiencies based upon the dollar amount of each finding ($4,885 and
$4,429 respectively).

MHM Rebuttal to General Management Response #1

Our determination of the significance of an internal control finding is not based solely on
materiality, but rather the nature of the finding. According to auditing standards, a significant
deficiency is a deficiency, or a combination of deficiencies, in internal control that is less severe
than a material weakness, yet important enough to merit attention by those charged with
governance. As such, our determination of the significance of internal control findings relative to
Findings 2013-10 and 2013-11 remains unchanged.

General Management Response #2

IRD is of the opinion that the prior compliance finding referred to in the Single Audit Act Report
for the year ended December 31, 2011 should not be cited as it has nothing to do with the SPR
program.

MHM Rebuttal to Management Response #2

Our financial audit of costs incurred under Cooperative Agreement No. 306-A-00-08-00509-00
is per the Performance Work Statement (PWS) as prescribed by SIGAR. This includes a review
of prior findings and recommendations reported in prior engagements relevant to the award.
The prior findings and recommendations do not have to be specific to the award. In accordance
with our PWS with SIGAR, we evaluated whether IRD has taken appropriate corrective action to
address findings and recommendations from previous engagements that could have a material
effect on the financial statements or other financial data significant to the audit objectives. Our
review of the Single Audit Act Report for the year ended December 31, 2011, noted a significant
deficiency whereby certain expenditures were recorded in the period paid instead of the period
in which they were incurred. We used this information to assess risk and to determine the
nature, timing and extent of current audit work, including determining the extent to which testing



                                                 88
                                                                                     APPENDIX B
                  INTERNATIONAL RELIEF AND DEVELOPMENT, INC.

                            Financial Audit of Costs Incurred under
                       Cooperative Agreement No. 306-A-00-08-00509-00

                        Auditors’ Rebuttal to IRD Responses to Findings

                                           (Continued)


the implementation of the corrective actions are applicable to the current audit objectives.
Based upon our audit, we noted in our audit report that IRD is properly recording expenses on
the accrual basis of accounting and as such, the corrective action has been adequately
implemented.

General Management Response #3

IRD indicates that the prior finding from the USAID OIG Report on SPR-SEA for the period
October 1, 2009 to September 30, 2010 should be considered resolved as our audit did not
identify a similar condition requiring that an SPR QA/QC staff be imbedded in the same
construction camp as the contractor. Additionally, IRD indicates that since the USAID OIG
Report was issued on May 12, 2012, well after the construction phase of the project was
completed, even if IRD agreed with the finding, it would have been impossible to address the
concern. Therefore, any issues identified by this audit have no relationship to the prior findings
contained in the USAID OIG report.

MHM Rebuttal to General Management Response #3

In our review of the USAID OIG Report, it does not make reference to SPR QA/QC staff being
imbedded in the same construction camp as the contractor as stated by IRD. Rather, our report
states that results of the USAID OIG audit identified one significant deficiency related to controls
over the approval of payments to subcontractors. A similar condition is documented in Finding
2013-4 of this audit report. Since a similar condition was identified in our audit, the corrective
action implemented was not adequate to address the deficiency.


Management Responses and Auditors’ Rebuttal to Each Specific Finding

2013-1: Lack of Adherence to Procurement Procedures

IRD disagrees with various components of this finding as follows:

Road Rehabilitation:

Road #18: IRD states that the original MON provided to the auditor was erroneously titled Road
#18, when in fact it was for Road #4. However, the auditor reviewed the original MON that IRD
claimed to be Road #4 and found it rather misleading. The title and scope of work indicated in
the original MON did match Road #18, which was for the construction of a road from Mest to
Yahya Khel to Ghundekay road in Paktika Province. During audit fieldwork, IRD advised us that
the MON may not exist for Road #18 as it could not be located.




                                                89
                                                                                     APPENDIX B
                  INTERNATIONAL RELIEF AND DEVELOPMENT, INC.

                            Financial Audit of Costs Incurred under
                       Cooperative Agreement No. 306-A-00-08-00509-00

                        Auditors’ Rebuttal to IRD Responses to Findings

                                           (Continued)


IRD subsequently provided a copy of what it claimed to be the “correct” MON. Having the
“correct” MON surface after IRD stated it could not be located raises doubt about its
authenticity. In addition, our review of the “correct” MON provided by IRD raised additional
issues. First, the MON is not on official IRD letterhead and is missing the signature of the Chief
of Party. Second, the only signature on the document is from the Deputy Chief of Party and the
date of signature is typed rather than handwritten. Third, the MON indicates that IRD eliminated
the contractor with the highest technical and cost score due to its price being unrealistic in
comparison to all other bids, but there is no accompanying documentation presented to justify
and explain the basis for this conclusion. As such, the MON was not properly authorized or
justified. Absent of proper authorization, it cannot be deemed as evidence that the decisions
described and actions taken per the MON represent reasonable conclusions or the decisions of
duly authorized IRD managers.

Nevertheless, we reevaluated the average cost per kilometer using the “correct” MON for Road
#18. This resulted in a revised average cost per kilometer of $120,295 for completion of a 21
KM road. Applying this revised average cost to the fully-rehabbed length of 21 KM, the
estimated cost to complete this length of road would have been $2,526,200. As the total costs
paid to the selected contractor were $7,245,133, we have revised our questioned costs to the
difference of $4,718,933, which is a reduction of $1,916,780. Other than the reduction to the
questioned costs, our recommendations are unchanged.

Road #36: IRD agrees that the MON was not retained in the procurement file and it provided
the MON for Road #38 instead of Road #36 as requested. It disagrees with the cost being
questioned as it believes adequate support exists demonstrating the costs are supported and
allowable. As outlined in the condition, IRD provided insufficient information. We were not
provided the detail or records that support the scoring sheets and evaluation documentation for
this road. In addition, a review of the contract consent letter approved by USAID neither
provides any details on the scoring nor the pricing, and as such, IRD has not provided sufficient
documentation that justifies the reasonableness of the $1,117,137 in costs incurred. Our
recommendation remains unchanged.

COCB – Subgrants:

Grant LG-09-06 (Health and Development Center for Afghan Women): IRD indicated that this
subgrant was awarded to the offeror that presented the best value to the SPR program. As
outlined in the finding’s condition, IRD provided insufficient information to support their decision
to award the grant to an offeror other than the highest scoring. According to our review of the
evaluation sheets IRD provided, HDCAW neither received the highest score nor did IRD
document why this company was the best value. Our recommendation remains unchanged.

Grant LG-09-12 (NPO/RRA): IRD indicates that this subgrant was awarded to the offeror that
presented the best value to the SPR program. IRD states that this grant was a best value



                                                90
                                                                                   APPENDIX B
                 INTERNATIONAL RELIEF AND DEVELOPMENT, INC.

                           Financial Audit of Costs Incurred under
                      Cooperative Agreement No. 306-A-00-08-00509-00

                        Auditors’ Rebuttal to IRD Responses to Findings

                                          (Continued)


award and was not based on cost. However, per our review of the evaluation sheets, NPO/RRA
did not receive the highest score nor did an explanation exist that documented why this
company was the best value. Our recommendation remains unchanged.

Grant LG-09-13 (ECW): IRD indicates that this subgrant was awarded to the offeror that
presented the best value to the SPR program. However, per our review of the evaluation
sheets, ECW did not receive the highest score nor did an explanation exist that documented
why this company was the best value. Our recommendation remains unchanged.

COCB – Contracts:

Wilbur Smith Associates: IRD states there were only two bidders for this contract, that the bid
from Wilbur Smith Associates was less than the second bidder, and that the IRD SPR consent
to subcontract request to USAID concluded that the proposal submitted by Wilbur Smith
Associates was more comparable to the Road Economic Decision Model (RED Model) and the
strategic objectives addressed in the RED model. As outlined in the condition, IRD provided
insufficient information during audit fieldwork. Our review of the procurement file noted that
competitive bidding procedures were not documented. Additionally, pre-award conference
minutes were not retained. IRD states that USAID approved the request to subcontract on July
30, 2009. However, the MON is dated August 6, 2009 which indicates that the MON was
prepared after IRD requested USAID to award the contract to Wilbur Smith Associates. As
such, it is questionable that any competitive bidding occurred and it is apparent that the winning
bid was selected and approval requested before the decision about negotiation was authorized.
Our recommendation remains unchanged.

Management and Administration:

Office Equipment: IRD states that the audit report is correct in that three competitive bids were
solicited, but the document to substantiate such a process was not retained. IRD also states
that a Comparative Bid Analysis was attached to the payment voucher which indicates that the
purchase was made from the lowest vendor. However, without documentation to support the
competitive bidding process, it is not possible to verify the amounts associated with each
vendor’s bid contained within the Comparative Bid Analysis. Our recommendation remains
unchanged.

Office Utilities: IRD states in two of three instances for procurement of fuel, that there is no
price difference between the amount paid and the lowest bid price. Therefore, there is no basis
for questioning costs due to no evidence being provided as to why the contract was not
awarded to the lowest bidder. Our review of supporting documentation provided confirms that in
one instance of fuel purchase, IRD actually paid less than the original lowest bid, and in the
second instance of fuel purchase, IRD paid a price that was equal to the price quoted by the
lowest bidder. As such, we have reduced questioned costs by $6,600 for these two instances



                                               91
                                                                                   APPENDIX B
                 INTERNATIONAL RELIEF AND DEVELOPMENT, INC.

                           Financial Audit of Costs Incurred under
                      Cooperative Agreement No. 306-A-00-08-00509-00

                        Auditors’ Rebuttal to IRD Responses to Findings

                                          (Continued)


and have revised the audit report accordingly. For the third instance of fuel purchase, IRD did
not provide evidence supporting why the lowest bidder was not selected. Other than the
reduction to questioned costs, our recommendation remains unchanged.


2013-2: Road Construction Incomplete Per Physical Observation

IRD disagrees with the finding indicating that the photographs in the report cannot be verified,
the depth or density of the base course layer was not verified, and that Road #11 was reviewed
and approved by its third party reviewer, as well as the Ministry of Public Works. IRD further
states that the photographs were taken two years after completion and there exists
contemporaneous photographic evidence depicting the progress and completion of Road #11.
Additionally, IRD requests that the references to misrepresentation and fraud be stricken from
the report.

As outlined in the condition, the final status for this road is reported as “Complete Full
Rehabilitation”, including 100% completion of an aggregate base course, which would be
equivalent to a final surface course. However, based upon a physical observation of the entire
road from Hassan Khel to Ster Village in June 2013, the road does not appear to have been
completed in accordance with the requirements of the agreement. This observation was not
performed by a skilled engineer, nor did the scope of our work under the PWS require such an
evaluation. In our professional judgment, in order to be able to opine on whether the costs
incurred were reasonable, allowable and allocable to the Agreement, we physically observed a
sample of 14 of the total 41 roads for which costs were claimed. During this physical
observation, only Road #11 depicted a condition that was so far removed from what was
expected, allowing for a span of 2 years since construction of a road with a normal useful life of
15 years, that we could not conclude that the road was in fact complete as reported. Our
recommendation remains unchanged.


2013-3: Inadequately Supported Road Rehabilitation Costs

IRD disagrees with various components of this finding as follows:

Road #20 – (Blue Khosar JV): IRD agrees that the audit report correctly notes that the
questioned payment for $12,250 was for costs related to the termination for settlement resulting
from the program descoped in December 2010. IRD also states that as part of the termination
for convenience, costs for unpaid construction work were verified prior to the subcontractor’s
submittal of their termination for settlement proposal. IRD also states that the unpaid
construction work was claimed in the settlement proposal submitted to IRD on October 12,
2011. However, these costs were noted as already paid in progress payments and should not
be included in the final termination settlement payment. As such, IRD believes the costs are



                                               92
                                                                                   APPENDIX B
                 INTERNATIONAL RELIEF AND DEVELOPMENT, INC.

                           Financial Audit of Costs Incurred under
                      Cooperative Agreement No. 306-A-00-08-00509-00

                        Auditors’ Rebuttal to IRD Responses to Findings

                                          (Continued)


fully supported. IRD did not provide evidence to clearly substantiate that the $12,250 was not
included in the final termination settlement. Per discussion with IRD personnel, we were
informed that Invoice Payment Application #27 in the amount of $12,250 was for the settlement
of a claim and should not have been included in the total submitted invoices. Since this cost
was handled as a claims termination settlement, as well as it appears to be claimed in a
progress payment, there is a risk that this cost was paid twice. As such, our recommendation
remains unchanged.

Road #27 – Afghan Wardak Construction Company (AWCC): IRD states that after an appeal by
the subcontractor during the close-out phase of the program, it converted the default termination
to a convenience termination for four principal reasons: (1) to comply with USAID direction to
focus on roads with the greatest immediate impact; (2) the context of nearly 20 documented
security incidents; (3) circumstances surrounding the subcontractor that caused the inability to
make sufficient progress on this road was excusable and (4) IRD states that we failed to
recognize the operative law with regards to termination for convenience settlements. As
outlined in the condition, there were two cure notices issued to the contractor for deficiencies
cited related to road construction activity. A Termination for Default was issued on December
18, 2010. Two months following the issuance of the Termination for Default, it was modified to
a Termination for Convenience by the new Chief of Party and additional project costs continued
to be incurred. During the course of our fieldwork, IRD did not provide supporting
documentation to substantiate why the change in the type of termination notice was issued.
The subcontractor in question was clearly not performing, and to change the termination status
from default to convenience is not consistent with USAID direction. Furthermore, had this
actually been a Termination for Convenience, then we would have evaluated appropriate criteria
in determining whether the costs incurred were reasonable, allowable and allocable. In the
absence of any documentation that justifies switching a Termination for Default to a Termination
for Convenience for a non-performing subcontractor, our finding remains unchanged.


2013-4: Payments Lacking Proper Approval and for Periods Beyond the Period of
Performance

IRD disagrees with various components of this finding as follows:

Road #6 (Azad Construction Company): IRD disagrees with questioned costs associated with
Road #6 indicating that while the majority of the road work was completed by June 15, 2011,
security incidents in early 2011 prevented final completion by that date. IRD also states that
due to the security situation surrounding this road, they agreed to allow the subcontractor to
finish the remaining work in August 2011. As outlined in the condition, the subcontractor was
Terminated for Convenience on April 7, 2011 with all work to be completed by June 15, 2011.
Costs incurred after this date are not allowable. However, a final invoice in the amount of
$193,814 was submitted as a progress payment for this project for the period July 15, 2011



                                               93
                                                                                 APPENDIX B
                 INTERNATIONAL RELIEF AND DEVELOPMENT, INC.

                           Financial Audit of Costs Incurred under
                      Cooperative Agreement No. 306-A-00-08-00509-00

                       Auditors’ Rebuttal to IRD Responses to Findings

                                         (Continued)


through August 14, 2011. IRD did not provide documentation to substantiate that a project
period extension was approved. As such, these construction costs have been deemed ineligible
as they were incurred after the official project completion date of June 15, 2011. Our
recommendation remains unchanged.

Road #9B (FMCC-THEC-HCG Joint Venture): IRD disagrees with questioned costs associated
with Road #9B indicating that the Request for Payment Application #15 was approved on June
5, 2011 by the IRD Contracts Manager and the Director of Roads. As outlined in the condition,
the subcontractor’s Payment Application Request #15 did not contain the required approvals
from the acting IRD Contract Manager and the DCOO-Roads Manager prior to issuance of
payment. As such, construction costs were deemed unsupported due to a lack of proper
approvals. Our recommendation remains unchanged.

Road #16 (Combat Construction Company): IRD disagrees with questioned costs associated
with Road #16 indicating that due to staff turnover, the construction team was restructured on
January 25, 2010 and the Acting Construction Manager was also serving as the Regional
Manager, as the incumbent Construction Manager was on leave, and that the Request for
Payment Application was approved by the Chief of Party. Based upon our review of Payment
Application Request #10, proper approvals were not obtained. The Construction Manager
signed as the Project Manager, Regional Manager and Construction Manager. One individual
signed as three separate approvers. Furthermore, a review of the quarterly performance report
that was subsequently provided still does not support management's explanation as the acting
Construction Manager is not named in the performance report that mentions the construction
team being restructured. Our recommendation remains unchanged.

Road #20 (Blue Kosher JV Company): IRD disagrees with questioned costs associated with
Road #20 indicating that due to the SPR program close-out period that was scheduled to end on
September 30, 2011, IRD directed the subcontractor to address final punchlist items to achieve
maximum completion within the remaining program time of the SPR Agreement, and that
Payment Application #26 includes payment for work completed before the end of the period of
performance. As outlined in the condition, a review was performed of the contract file whereby
it was noted that Contract Modification #5 extended the final completion date to June 15, 2011.
However our review of Payment Application #26 noted that costs were incurred under this
contract for the period June 25, 2011 through July 25, 2011 without any approval to extend the
project period. Since no documentation was provided to substantiate that proper approvals
were obtained to extend the project period, these costs were deemed ineligible. Our
recommendation remains unchanged.

Road #27 (Afghan Wardak Construction Company): IRD disagrees with questioned costs
associated with Road #27 indicating that in March 2009, the southern road management team
was relocated to Kandahar to allow closer proximity to the road sites. IRD also states that an
additional sheet exists for Invoice #6 that includes the appropriate signatures of the newly



                                              94
                                                                                     APPENDIX B
                  INTERNATIONAL RELIEF AND DEVELOPMENT, INC.

                            Financial Audit of Costs Incurred under
                       Cooperative Agreement No. 306-A-00-08-00509-00

                        Auditors’ Rebuttal to IRD Responses to Findings

                                           (Continued)


relocated Kandahar team, comprised of the Project Manager, Southern Regional Manager and
Construction Manager. IRD also states that the questioned payment had final approval from the
Deputy Chief of Party of Roads. As outlined in the condition, a review was performed of
Payment Application Request #6, which revealed that proper approvals were not obtained as
the Regional Manager signed as the Project Manager, Regional Manager and Construction
Manager. The additional documentation IRD provided as cited in its response is inconclusive
due to the poor quality of the document. Our recommendation remains unchanged.


2013-5: Lack of Adequate Cash Disbursement Controls

IRD disagrees with this finding and indicates that the facts are not correct surrounding the stolen
funds, and that the dollar amount of funds stolen is immaterial in relation to total costs incurred,
thus indicating internal controls are adequate. As stated in the condition, IRD disclosed that
during the period of August 2009 through October 2009, a former COCB Regional Coordinator
for the IRD Eastern Region in Afghanistan stole $75,000 in IRD funds that were intended for the
execution of several COCB grants. IRD made repeated attempts to locate the individual with no
success. IRD concluded that the individual disappeared and there would be no chance of
recovering the missing funds. The IRD Finance Department also determined that an additional
$34,084 was transferred to this individual through a money dealer in October 2009 for other
grant activities for which no receipt from the intended community was sent to IRD. The grants
were designated by IRD as Capacity Building Small Grant (CBSG) – Fixed Obligation Grant
(FOG). The IRD Finance Department has also acknowledged that this individual received
employee advances totaling $5,500 during his tenure as the Southeastern Regional
Coordinator. These advances were never cleared by the employee submitting valid receipts or
other documentation to support that the travel did occur. IRD indicated that the $5,500 was only
recorded as a receivable but never charged to the project. No documentation supporting this
claim was provided. The questioned cost for COCB is $109,084 and for Management and
Administration is $5,500. The total questioned costs due to lack of adequate cash disbursement
controls is $114,584. However, IRD received an insurance reimbursement related to the theft in
the amount of $80,500 for which it reduced a subsequent claim for reimbursement. In
conclusion, the total ineligible costs charged to the program are the net loss of $34,084, plus the
associated indirect costs of $7,117, for a total of $41,201.

IRD states that its internal controls over cash disbursements were more than adequate to
protect Federal funds as this one instance of stolen funds is deemed to be immaterial. The fact
that the dollar amount of the theft was immaterial in relation to the total costs incurred does not
deter from the fact that a theft occurred, and it did occur as a result of a breakdown in internal
controls over cash disbursements. IRD relied on the integrity of its employees to deliver large
sums of cash to villages for their use, which created opportunities for theft. The employees
were traveling to regions that were not deemed safe for expatriate staff to travel to. At the time,
there were no banks, paying agents, or other viable ways to safely transport the funds to the



                                                95
                                                                                   APPENDIX B
                 INTERNATIONAL RELIEF AND DEVELOPMENT, INC.

                           Financial Audit of Costs Incurred under
                      Cooperative Agreement No. 306-A-00-08-00509-00

                        Auditors’ Rebuttal to IRD Responses to Findings

                                          (Continued)


community leaders. As such, controls such as dual custody of cash, were lacking once the
cash was given to the employee to deliver. Our recommendation remains unchanged.


2013-6: Non-SPR Expenses Charged to the Agreement

IRD agrees that the costs were incorrectly charged to the SPR program, but disagrees in that it
corrected the coding subsequent the end of the audit period. While a correction of the coding
was made subsequent to the end of the audit period, the Special Purpose Financial Statement
only reports activity through December 31, 2012, and IRD did not disclose this as a subsequent
event in its Notes to the Special Purpose Financial Statement. USAID should consider the
subsequent correction of this miscoding when determining the ultimate resolution of the finding.
Our recommendation remains unchanged.


2013-7: Indirect Costs Charged as Direct Costs

IRD disagrees with the finding indicating that the costs were not included in the indirect cost
pool and also charged as direct costs. The costs were not recorded as both a direct and
indirect cost, but rather indirect costs were incorrectly recorded as direct costs. While a
correction of the coding was made subsequent to the end of the audit period, the Special
Purpose Financial Statement only reports activity through December 31, 2012, and IRD did not
disclose this as a subsequent event in its Notes to the Special Purpose Financial Statement.
USAID should consider the subsequent correction of this miscoding when determining the
ultimate resolution of the finding. Our recommendation remains unchanged.


2013-8: Missing or Insufficient Source Documentation to Support Expenses

IRD disagrees with various components of this finding as follows:

Employment Contract not Signed by Chief Administrative Officer for Yunus Afshar – Questioned
Cost including Fringe Benefits and Indirect Cost ($47,257.48, including indirect): IRD states that
with regard to this employee, there was an offer and acceptance and a valid employment
contract was finalized. IRD also states that due to an administrative oversight, the IRD CAO did
not sign the contract. However, it believes that the lack of signature does not change the fact
that there is still a valid employment contract. As no records were provided to support that the
agreement and rates of pay were approved, our recommendation remains unchanged.

No Support for Payments to an SPR Consultant – Questioned Cost including Indirect Cost
($18,725, including indirect): IRD states that they have been unable to locate the payment file




                                               96
                                                                                    APPENDIX B
                 INTERNATIONAL RELIEF AND DEVELOPMENT, INC.

                           Financial Audit of Costs Incurred under
                      Cooperative Agreement No. 306-A-00-08-00509-00

                        Auditors’ Rebuttal to IRD Responses to Findings

                                           (Continued)


for the consultant in question. As such, no records were provided to support this cost. Our
recommendation remains unchanged.

Timesheets not signed by supervisor – Questioned Cost including Fringe Benefits and Indirect
Cost ($51,007.13, including indirect): IRD indicates that the five time sheets covered by this
finding are all in 2008 when IRD had a manual timesheet system for international and TCN staff.
The documentation provided indicated that the timesheets lacked approval by a supervisor, thus
the hours worked were not approved. Our recommendation remains unchanged.

Basis for allocation of Bonus to SPR – Questioned Cost including Indirect Cost ($69,623.92,
including indirect): IRD states that the bonus was allocated based upon management’s
estimate of the time spent by the IRD HQ Infrastructure Director on the projects/activities
worked on during the first nine months of 2009. As outlined in the condition, IRD could not
provide records, or provided insufficient records, to support transactions selected for testing. No
supporting documentation was provided for the base used for the bonus allocated to the SPR
Program. As such, our recommendation remains unchanged.


2013-10: Entertainment Expenses Were Charged to the Agreement

IRD does not agree that all of the costs in question are prohibited entertainment expenses. It
believes that food for staff represents normal life support costs allowed under the award. IRD is
in agreement that other costs are ineligible as indicated. The entertainment costs in question
were for farewell parties, holiday celebrations and other parties and are not considered to be
normal food costs. As such, our recommendation remains unchanged.


2013-11: Lack of Support for Disposed, Lost and Damaged Assets

IRD disagrees with this finding indicating the items noted were less than the threshold of $5,000
established by the CFR. While we agree that the costs of the assets are less than the CFR
threshold, IRD reported the items as equipment and tracked the items as equipment. As such,
it needs to ensure an adequate control system exists to prevent loss, damage or theft of
equipment and needs to comply with the applicable CFR requirements related to equipment. As
such, our recommendation remains unchanged.




                                                97
                               The mission of the Special Inspector General for Afghanistan
           SIGAR’s Mission     Reconstruction (SIGAR) is to enhance oversight of programs for the
                               reconstruction of Afghanistan by conducting independent and
                               objective audits, inspections, and investigations on the use of
                               taxpayer dollars and related funds. SIGAR works to provide accurate
                               and balanced information, evaluations, analysis, and
                               recommendations to help the U.S. Congress, U.S. agencies, and
                               other decision-makers to make informed oversight, policy, and
                               funding decisions to:
                                        •   improve effectiveness of the overall reconstruction
                                            strategy and its component programs;
                                        •   improve management and accountability over funds
                                            administered by U.S. and Afghan agencies and their
                                            contractors;
                                        •   improve contracting and contract management
                                            processes;
                                        •   prevent fraud, waste, and abuse; and
                                        •   advance U.S. interests in reconstructing Afghanistan.


  Obtaining Copies of SIGAR    To obtain copies of SIGAR documents at no cost, go to SIGAR’s Web
   Reports and Testimonies     site (www.sigar.mil). SIGAR posts all publically released reports,
                               testimonies, and correspondence on its Web site.




To Report Fraud, Waste, and    To help prevent fraud, waste, and abuse by reporting allegations of
                               fraud, waste, abuse, mismanagement, and reprisal, contact SIGAR’s
      Abuse in Afghanistan     hotline:
   Reconstruction Programs
                                        •   Web: www.sigar.mil/fraud
                                        •   Email: sigar.pentagon.inv.mbx.hotline@mail.mil
                                        •   Phone Afghanistan: +93 (0) 700-10-7300
                                        •   Phone DSN Afghanistan: 318-237-3912 ext. 7303
                                        •   Phone International: +1-866-329-8893
                                        •   Phone DSN International: 312-664-0378
                                        •   U.S. fax: +1-703-601-4065




                               Public Affairs Officer
              Public Affairs
                                        •   Phone: 703-545-5974
                                        •   Email: sigar.pentagon.ccr.mbx.public-affairs@mail.mil
                                        •   Mail: SIGAR Public Affairs
                                            2530 Crystal Drive
                                            Arlington, VA 22202
